<html>
<title> - REGIONAL IMPLICATIONS OF A NUCLEAR DEAL WITH IRAN</title>
<body><pre>[Senate Hearing 113-633]
[From the U.S. Government Publishing Office]





                                                     S. Hrg. 113-633

           REGIONAL IMPLICATIONS OF A NUCLEAR DEAL WITH IRAN

===================================================================


                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 12, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                     U.S. GOVERNMENT PUBLISHING OFFICE 

94-340 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     3
Kagan, Dr. Frederick W., Christopher DeMuth Chair and director, 
  Critical Threats Project, American Enterprise Institute, 
  Washington, DC.................................................    16
    Prepared statement...........................................    18
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Modell, Scott, senior associate, Burke Chair in Strategy, Center 
  for Strategic and International Studies, Washington, DC........     9
    Prepared statement...........................................    12
Ross, Hon. Dennis, William Davidson Distinguised Fellow, 
  counselor, The Washington Institute for Near East Policy, 
  Washington, DC.................................................     4
    Prepared statement...........................................     7

                                 (iii)

  

 
                      REGIONAL IMPLICATIONS OF A 
                         NUCLEAR DEAL WITH IRAN

                              ----------                              


                        THURSDAY, JUNE 12, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Coons, Murphy, Kaine, 
Corker, Risch, Rubio, Johnson, Flake, Barrasso, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Let me thank our panelists who I know will provide some 
thoughtful insights into the regional implications of a nuclear 
deal with Iran.
    International attention is feverishly focused on the 
question of ``if'' the P5+1 and Iran will be able to agree and 
on what. I have strong views on what I think that agreement 
should look like and if we reach an agreement how we ensure 
Iranian compliance.
    It is my view that any deal with Iran must demand 
significant dismantling of Iran's nuclear infrastructure, 
including eliminating the vast majority of Iran's centrifuge 
cascades and LEU's, which cannot mean leaving large stockpiles 
of LEU in oxide form that can easily be reconverted; 
terminating Iran's R&D efforts to create more advanced 
centrifuges; and fundamentally altering the internal 
infrastructure of the Arak facility, not just powering it down 
to a lower megawatt facility. Together, these elements must 
move the timeline for detectable breakout by Iran beyond a 
year.
    Second, Iran must come clean and provide information about 
the military dimensions of its nuclear program and allow access 
to facilities where these activities have been taking place.
    And third, the agreement must include a long-term robust 
inspections and verification regime, hopefully in the 20-year 
range, in other words, at least as long as Iran has been lying 
to the world about its program.
    Fourth, any suspension of sanctions will require Iran to 
meet a series of clear benchmarks. There must be clear 
demarcations of what constitutes a breach, including 
implications for both nominal failure to comply and significant 
material breaches. Repercussions for a breach by Iran will be 
snapback provisions for sanctions. At the end of the day, the 
specifics of the agreement will not be worth the paper they are 
written on if Iran believes it can cheat without significant 
repercussions.
    Now, less attention is focused on perhaps the more 
critical, strategically relevant question: What happens after a 
deal? What are the strategic implications for the United 
States, for our allies and partners? What are the strategic 
implications of a politically and economically resurgent Iran, 
and what are the goals of its leaders in the aftermath of such 
a deal? I personally doubt that the nuclear deal is part of 
broader Iranian aspiration for a rapprochement with the United 
States.
    This hearing will focus on what we should expect, how we 
should be preparing, and options we should be considering, if 
there is a deal. In other words, we must plan for a potential 
success. And in my view, success will not be defined 
exclusively by whether or not we get a good deal with Iran. The 
illicit nuclear program is only one pillar of much broader and 
equally troubling Iranian actions. Iranian support for 
terrorism goes back decades, and as we speak, Iran is actively 
cultivating terrorist networks and violent proxies across the 
region in Lebanon, Syria, Iraq, Bahrain, Yemen, the Palestinian 
territories, and beyond.
    Our gulf partners are very concerned about Iran-sponsored 
terrorism. I heard this very clearly from Saudi and Emirati 
officials during my recent visit to the gulf. It is imperative 
that if we achieve a nuclear deal with Iran, our partners and 
allies are reassured that the United States remains committed 
to their security and is not naive about the nature of the 
Iranian threat and its hegemonic ambitions.
    It is clear to me that our partners across the region are 
adopting hedging strategies toward Iran because United States 
commitment to the region is being actively questioned in light 
of our engagement with Iran and our hesitancy in Syria. This is 
evidenced by the string of Iranian official meetings and visits 
that has evolved from a trickle to a deluge. My concern is what 
will happen to gulf relationships with Iran after a deal is 
reached?
    Finally, on sanctions, it is my view that the international 
sanctions regime has been the single most influential 
determinant in keeping the Iranians at the negotiating table. I 
look forward to hearing from our panelists on what the regional 
implications of sanctions relief would be. How will the Iranian 
Government use this potential economic windfall? Can we control 
access to those assets to ensure that they are not increasing 
their investment in regional destabilization?
    At the end of the day, we must remain cognizant of Iranian 
motivations in pursuing a deal. Is it merely about sanctions 
relief for the leadership in Tehran, or is this about a broader 
realignment that could have serious strategic implications for 
the multidimensional chess game being played across the Middle 
East?
    With that, let me recognize the distinguished ranking 
member of the committee, Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman, for having the 
hearing, and I want to thank our witnesses who always enlighten 
us. I know we have three very distinguished witnesses today.
    I think, as the chairman mentioned, there is no question 
that there is a pretty major geopolitical shift that is 
occurring right now in the Middle East. The United States is 
facilitating that by the policies that we have not pursued or 
pursued, if you will, in Syria, by Iraq being weakened as it 
is, and Iran certainly playing a big role there. And our 
friends on the peninsula. I, too, was there recently and it is 
pretty amazing the shift in their attitude and the hedging that 
is beginning to take place there and the possibility, I might 
say, of tremendous amounts of proliferation should this 
arrangement, as it appears today, continue on.
    I think all of us want to see a diplomatic solution. I do 
not think there is anybody on this dais that wants to see 
anything different from that. I think all of us have been 
pretty stunned, on the other hand, at the terms of the interim 
agreement and find it difficult for us to get to a good end 
state.
    Candidly, some of the conversations we have privately with 
those involved in negotiations--some comments come out from 
time to time like, well, we really want to get them hooked on 
cash. In other words, we want them to see how well they can do 
with sanctions being undone and their economy growing and want 
relief even more so as to see this through.
    So, look, again, I know we are at a critical period. I know 
there was a hastily called bilateral meeting that just took 
place. I have not had any readout as to whether it was 
successful or not. But there is no question that United States 
actions over the course of the last half a year, 9 months, have 
greatly strengthened Iran's role in the world. You know, even 
if we get a good deal, which I hope we do--that is the most 
important element, is to make sure that their program is 
dismantled, not mothballed. As they say, they can crank right 
back up in 30 days and be right back in business based on what 
they have been discussing with us today. I know all of us want 
to see a dismantlement so that that cannot occur.
    But I want to emphasize again what the chairman has 
mentioned. Even if we make it through this successfully, which 
I hope with every cell of my body we do, they are still going 
to be a major state sponsor of terrorism. They are still going 
to be supporting a brutal dictator in Syria, and they are going 
to still be tremendous human rights violators.
    So I thank you all for being here. I thank you for the 
wisdom you share. I look forward to your comments and our 
opportunity to follow up with questions. Thank you.
    The Chairman. Thank you, Senator Corker.
    Today we have a single panel of well-regarded experts. We 
are pleased to welcome Ambassador Dennis Ross, counselor and 
William Davidson Distinguished Fellow at the Washington 
Institute for Near East Policy; Scott Modell, senior associate 
and holder of the Burke Chair in Strategy at The Center for 
Strategic and International Studies; and Dr. Frederick Kagan, 
the Christopher DeMuth chair and director of the Critical 
Threats Project at the American Enterprise Institute. Thank you 
all for being here.
    Let me remind you that your full statements will be 
included for the record, without objection. I would ask you to 
try to summarize your statements in about 5 minutes or so, so 
that we can enter into a dialogue with you.
    And with that, Ambassador Ross, we will start with you.

 STATEMENT OF HON. DENNIS ROSS, WILLIAM DAVIDSON DISTINGUISHED 
   FELLOW, COUNSELOR, THE WASHINGTON INSTITUTE FOR NEAR EAST 
                     POLICY, WASHINGTON, DC

    Ambassador Ross. Thank you, Mr. Chairman. It is a pleasure 
to be back here again before the committee.
    I will summarize what I submitted to the committee.
    I do want to start by saying I agree with your basic points 
on the essence of what a deal should be, and I do want to talk 
for a second about the deal not because I want to get into it 
but because I do not think right now the odds of reaching a 
deal are very high. It does not mean that it will never be 
achieved, but in the near term, I think it is not very likely.
    I think what could make it likely is the Iranians seeing 
that the price is very high. Right now, the Iranian perception 
is that they do not have to roll back their program either 
because they do not believe they have to or because they are 
not prepared to. If we want to change that because they do, in 
fact, seek a rollback of sanctions, if we want to change their 
calculus, they have got to see that the failure of diplomacy is 
much worse for them than it is for us. They have got to see 
that the costs will go up dramatically for them not only 
economically, but even the huge investment they have made in 
their nuclear infrastructure could be lost if there is no 
diplomacy because there could well be military action.
    The irony is the more we convey that kind of resolve, we 
make a deal more likely, but also the irony is the more we 
reassure our regional partners. The essence of this hearing is 
supposed to be about the implications of a deal, and the fact 
is today, if there were a deal, it would cause great concern 
among both our regional partners, meaning Arab partners but 
also Israel, but for different reasons.
    The Saudis, in particular--the Emiratis you mentioned you 
have just seen them. They look at themselves as being engaged 
in an existential struggle right now with Iran not because of 
the nuclear issue. They view the nuclear issue as being an 
instrument in what is an Iranian effort to gain regional 
dominance.
    From a Saudi perspective, what do they see in the region 
right now? They see troubles in their eastern province. They 
see Bahrain. They see Iraq. They see Syria. They see Lebanon. 
They see Yemen. Everywhere they see an Iranian hand. And that 
they view as an existential struggle. So if, in fact, there 
were a deal, from their standpoint right now, the deal would 
either provide a kind of license to the Iranians to do much 
more, but would also provide them the wherewithal to do much 
more. They would be out from under severe economic sanctions. 
They would be freed of that. They view the deal itself as being 
a function of our desire, an American desire, whether their 
perception is right or not--and I think their perception, by 
the way, is exaggerated, but their perception exists. And that 
perception is basically our concern with the nuclear issue 
trumps everything else.
    Now, that is a view that is also shared by the Israelis, 
but their point of departure is different. They view the 
Iranian behavior in the region as a problem but one they can 
deal with. They view the nuclear issue as an existential 
threat. A deal from the Israeli standpoint would be fine if it 
does not leave the Iranians as a threshold nuclear state where, 
at a time of their own choosing, they could end up breaking 
out.
    So how to deal with these collective set of concerns that 
exist about Iran but are not entirely motivated by the same 
factors. I am going to suggest to you a few things that we 
could be doing that would be appropriate for both sets of 
concerns, on the one hand, but I will also offer a few tailored 
ideas on the other.
    What is the most important factor for us? We need to 
demonstrate unmistakably that we are prepared to compete with 
the Iranians. And I would identify two things we could do that 
would have an impact on both our key Arab friends and the 
Israelis. Syria. You mentioned Syria. The more we are seen as 
being prepared to compete there, meaning we are prepared to 
raise the price to the Iranians of what they are doing in 
Syria. We are prepared to change the balance of power on the 
ground, meaning not only between those in the opposition vis-a-
vis ISIS, who is obviously a source of concern, given what is 
going on in Iraq now, but also vis-a-vis the regime in Syria, 
Bashar al-Assad regime, where the Iranians are all in with 
them.
    Now, what does that mean in practical terms? It does not 
mean boots on the ground. It does mean the United States being 
prepared to quarterback the effort to provide meaningful 
assistance, including lethal assistance, designed to affect the 
balance of power on the ground. It means having the United 
States work with everybody else who is providing assistance, 
making sure that it is coordinated, it is complementary, it is 
additive, and in fact, it goes and addresses the purpose that 
we seek. That is one thing that we could do.
    A second thing we could do is we could actively interdict 
the Iranian and clandestine arms shipments around the region. 
When the Israelis interdicted the Klos C shipment that was 
going from Iran taking Iranian arms to Gaza, had we done that, 
the impact on the region and the impact on the Iranians would 
have been big. For those who feel that, gee, that might 
threaten what we are doing with Iran, Iran does not seem to 
have a problem negotiating with us on the nuclear issue and 
being very active throughout the region at the same time. There 
is absolutely no reason that we cannot do the same thing with 
them.
    And by the way, if what you are trying to do is to enhance 
Rouhani's position, you do not enhance Rouhani's position by 
showing that Qasem Soleimani is able to do things that do not 
cost the Iranians. It is the IRGC al-Quds Brigade that is 
active throughout the region, and we need to show that there is 
a cost to the Iranians for doing this, not only showing them 
that there is a cost to do something else, it would also have 
the benefit of reassuring our friends in the region that we 
mean what we say. We have resolve. We are not turning a blind 
eye to what the Iranians are doing in the region to change the 
regional balance of power. We are prepared to compete with 
them.
    I know my time is about up. So let me cite a few other 
things we could be doing that is tailored more specifically to 
each side, to what the Saudi concerns could be, as an example, 
what the Israelis' concerns could be for an example.
    I will give you just one example on the Saudis. There is a 
series of things that we could do with the Saudis, the 
Emiratis, and others, but just one thing that would make a big 
difference with the Saudis and the Emiratis. How about doing 
contingency planning? How about sitting down with them and 
saying let us look at the array of threats that we see 
throughout the region that are coming from the Iranians. We are 
not just going to do an assessment of them. Let us do 
contingency planning with you so that we could actually counter 
them, be prepared for them, deal with them. The signal that 
would send to each of them would be, I think, quite remarkable 
at this point.
    And again, one of the reasons you want to do this is it 
gets at what both the chairman and Mr. Corker were saying. We 
do not want them going off on their own and in a sense either 
engaging in hedging strategies or doing other things where the 
Saudis go ahead and they parade Chinese missiles. They are 
doing that for a reason, and it is sending a message to us and 
to others in the region. We want them to be more reassured 
about us. So contingency planning with the Saudis and the 
Emiratis I think would go a long way toward addressing concerns 
that they have.
    With the Israelis, I will give you two examples of things 
that we could do.
    If the big Israeli fear is that you have a deal that could 
allow the Iranians to break out or to creep out, then one of 
the things you have to do with the Israelis is to give them a 
high level of assurance that we are very well focused on how 
the Iranians could cheat, and more importantly, we are very 
well focused on making sure there is a severe consequence for 
cheating. We should be talking to the Israelis about 
identifying where they could break out, where the Iranians 
could break out or creep out if there is an agreement. We 
should be focused on what the cheating could look like. We 
should talk with the Israelis about what we are prepared to do, 
realizing that if we can do it collectively, it is one thing 
internationally, but being prepared to do things on our own if 
that is not the case. And that is not just economically. It 
might also have to involve the use of force under certain 
circumstances.
    The second thing we could do with the Israelis, because 
they might still fear that for whatever reasons we might 
constrain ourselves in the event of a violation, which after 
all, if you look at the history of arms control agreements, it 
is not exactly unusual for there to be violations of arms 
control agreements--one of the things we could do with the 
Israelis is make it clear to them that we would support what 
they would do. We could have conversations with them, identify 
categories of different kinds of violations of the agreement, 
and the more extreme the violations, we could be prepared to 
support what the Israelis' actions would be, and that could 
even involve us providing the Israelis, in the event of an 
agreement, certain forms of compensation that could include the 
provision of capabilities that the Israelis themselves do not 
have today that could be useful for them if they had to act 
militarily. Sending that message not only to the Israelis but 
others in the region, including the Iranians, I think again 
ironically would reinforce the larger purpose of reaching an 
agreement in the first place, but if we do reach that 
agreement, then dealing with some of the concerns that you 
raised in your opening statement.
    Thank you.
    [The prepared statement of Ambassador Ross follows:]

              Prepared Statement of Ambassador Dennis Ross

    America's readiness to negotiate a deal with the Islamic Republic 
on its nuclear program is a source of deep concern among our 
traditional friends in the Middle East. For the Arabs, the fear is that 
the deal will come at their expense, with the United States 
increasingly seeing Iran as a partner. For the Israelis, the worry is 
that we will conclude a deal that leaves the Iranians as a threshold 
nuclear state--capable of breaking out to nuclear weapons at a time 
when we might be distracted by another international crisis.
    Both sets of fears presume that there will be a deal. While the 
committee has asked us to discuss the regional implications of such a 
deal, I should note at the outset that I still believe the prospects of 
an agreement are probably less than the 50-percent figure President 
Obama cited late last year. Basic conceptual gaps remain, with the 
Iranians still believing that their limited offers of transparency 
should be sufficient to satisfy our concerns about the peaceful 
character of their nuclear program. Will the Supreme Leader, who has 
talked about not dismantling their program, accept a serious reduction 
in the numbers of their centrifuges? We will see, but at this point, 
Ali Khamenei either is not prepared to roll back Iran's nuclear program 
or doesn't believe he will have to do so in order to produce a serious 
rollback in the sanctions regime. He does not appear to understand that 
there can be no rollback in sanctions without a rollback and deep 
reduction in the Iranian nuclear program--meaning Iranian centrifuges 
must be dramatically reduced in number; much of the accumulated 
enriched uranium must be shipped out of the country; Fordow must be 
shut down or completely disabled; and the Arak heavy water plant must 
be converted so it cannot produce plutonium.
    The Iranian negotiators at this point have given no indication of 
being able to accept such a rollback. And yet, if we are to concede 
limited enrichment for the Iranians, rollback of this sort plus 
transparency both beyond the Additional Protocol and about the possible 
military dimensions of their program will be required. Even if 
President Rouhani and Mohammad Javad Zarif, his foreign minister, are 
ready to accept such a deal--and it is not clear that they are--can 
they sell this to the Supreme Leader? Maybe, but I suspect that still 
remains a long shot.
    To be sure, if there is to be a deal, the Supreme Leader must see 
the very high costs to the Islamic Republic of diplomacy failing. He 
must be convinced that such failure will mean enduring, severe economic 
pain for Iran as well as the high probability that force will be used 
to destroy the huge investment the Islamic Republic has made in its 
nuclear facilities. Ironically, that posture--which may make a deal 
more likely--would also be useful for assuaging the deep concerns our 
regional friends have about any possible P5+1 nuclear accord with the 
Iranians.
    Both the Israelis and our key Arab friends believe that we are 
anxious for a nuclear deal, and they are not taking seriously the 
administration's declarations that no deal would be better than a bad 
deal. They see active Iranian efforts to change the balance of power in 
the region and, fairly or not, little sign that we are prepared to 
compete with the Iranians as they do so. That has led to a perception 
among our regional friends that we attach such importance to a deal on 
the Iranian nuclear program that we turn a blind eye to Iranian 
behavior in the region.
    The administration argument that it is simply separating the 
nuclear issue from the other Iranian challenges in the area has not 
altered the impression of many in the region that our concerns about 
the Iranian nuclear program trump everything else. Here, it is worth 
highlighting that the Israeli and Arab concerns are different when it 
comes to Iran.
    For the Israelis, their priority is the Iranian nuclear program. 
That constitutes an existential threat. Iran and its proxies like 
Hezbollah constitute a threat, but, in Israeli eyes, that is 
manageable. Iran possessing nuclear weapons is not manageable or 
containable. For the Saudis, Iran already represents an existential 
threat even without nuclear weapons. The Saudis, Emiratis, and others 
see an aggressive Iranian pursuit of regional hegemony. From a Saudi 
standpoint, the Iranians are encircling them--seeking to gain dominance 
in, and the ability to threaten them overtly and covertly from, 
Bahrain, Iraq, Syria, Lebanon, and Yemen. The Iranian nuclear program 
would add to the threat--perhaps making the Iranians less risk averse--
but it is not the source of the problem they see.
    Talk of a possible reconciliation between Saudi Arabia and Iran is 
likely to mean little. They are competitors in every sense of the word. 
It is not just Arab versus Persian, Sunni versus Shiite, or even 
traditional balance of power concerns related to regional dominance. It 
is all of these things, and it goes to the source of legitimacy for 
each. The Islamic Republic challenges the legitimacy of any monarchy 
and has pretensions to lead Muslims internationally. The Saudis see a 
fundamental threat to their role in leading Sunnis and feel that Iran 
challenges it religiously.
    For the Saudis, an Iran with nuclear weapons requires a 
countervailing response; such weapons would certainly add to the 
dangers. But in the near term, the Saudis may fear even more an Iran 
that is no longer being damaged by severe economic sanctions, no longer 
isolated internationally, increasingly able to develop economically, 
and with more means for troublemaking. As such, the Saudis, in 
particular, may fear that a deal on the nuclear program will not only 
signal a new American openness to Iran, but, even more, give the 
Iranians license to be more aggressive in the region, and with the 
economic wherewithal to do so. Words alone will not reassure the Saudis 
in the aftermath of a deal. They will look for signs that a nuclear 
deal is not going to transform our relationship with Iran--and that we 
will be vigilant in countering Iran's threats in the area.
    Unlike the Saudis, the measure for the Israelis is what kind of 
deal is reached. The Saudis will be suspicious of any nuclear deal; for 
the Israelis, it depends on the deal. A deal that precludes the 
Iranians from being able to turn a civil nuclear program into a nuclear 
weapons capability would be welcomed. Such a deal would remove an 
existential threat to Israel. The problem for the Israelis is that the 
deal that would make them most comfortable is probably not attainable 
in the P5+1 negotiations; Israelis feel that Iran must be denied an 
ongoing enrichment capability. While that would be for the best from a 
strictly nonproliferation standpoint, it is probably not attainable--at 
least that is the consensus of those members of the P5+1 negotiating 
with the Iranians. The question for the Israelis becomes whether they 
can be reassured enough about the scope of the rollback of the Iranian 
program, the transparency measures designed to prevent cheating on the 
rollback, and the credible consequences that would be imposed on the 
Iranians if they cheated anyway.
    What implications does this have for our approach toward our 
regional friends if there is a deal? Since the Saudi and Israeli 
concerns are different, our approaches to them should also differ in 
some respects. That said, anything which suggests that the United 
States will actively compete with the Iranians would be reassuring to 
both. All of our friends want to see that we will not permit Iran to 
become stronger in the region at their expense, that we will be there 
for our friends if they face threats, and that we don't so fear 
conflict with Iran that we will acquiesce to any of its behaviors.
    In this regard, there are two steps we could take that would be 
reassuring to Arabs and Israelis alike:

  <bullet> Demonstrate in Syria that our concern is about both the 
        growth of the jihadist presence in the country and the 
        prospects of Assad cementing his hold on power. The former 
        threatens all of us; the latter would signal a victory for Iran 
        and the demonstration that it succeeds when it uses its power 
        to alter the landscape in the region. We need to show that we 
        will not acquiesce to that outcome. This means not just 
        increasing lethal assistance to the pragmatic Syrian 
        opposition, but doing so with an eye toward changing the 
        balance of power on the ground, including between the 
        opposition and the regime. This means taking control of the 
        collective effort to support the opposition--through training, 
        material assistance, arming, etc.--in order to make sure that 
        everything that is being done to support the acceptable 
        opposition is coordinated and complementary.
  <bullet> Show that we will not allow the Iranians to ship arms 
        clandestinely around the region. This means interdicting 
        clandestine Iranian arms shipments. The Israelis interdicted 
        the Klos C ship carrying Iranian arms to Gaza, but we should 
        have done it. We don't have to announce what we are doing or 
        even take public credit for it; we just need to do it. The 
        Iranians and our friends will see it and understand that we are 
        competing and that the Iranians will pay a price for what they 
        are doing.

    As for additional steps geared toward the specific concerns of 
Arabs and Israelis, we might launch contingency planning with the 
Saudis and Emiratis on how we would deal with particular Iranian 
threats. This would show our seriousness and also put us in a position 
to act when needed; if this meant different kinds of exercises with 
each, the Iranians would also get the message.
    With the Israelis, if there is a nuclear deal, we could discuss the 
specific steps we would take if the Iranians cheat on a deal and how we 
would impose consequences--even anticipating that there might be 
reluctance on the part of others to hesitate in the face of violations 
of the agreement. We might also compensate the Israelis if there is a 
deal by providing more bunker-buster bombs and more tankers to make 
them more capable of militarily acting on their own against the 
Iranians in the face of cheating. This would reassure the Israelis that 
even if we felt constrained to act militarily in the face of Iranian 
violations of an agreement that made a breakout possible, Israel would 
not be left without options.
                              conclusions
    Our traditional friends in the Middle East are very suspicious 
about Iran's aims in the region. Although the Obama administration has 
tried to reassure the Saudis, Emiratis, and Israelis about our 
commitments and our understanding of Iranian behavior, there are deep-
seated doubts about what we are actually prepared to do. While our 
hesitancy on Syria may reflect understandable concerns about avoiding a 
quagmire, the Iranians show no such hesitancy and have invested heavily 
in ensuring the survival of the Assad regime. In a region where an 
Iranian win is seen as a loss for our friends, the worries about us 
have increased. It is through that lens that many of our regional 
friends view a possible nuclear deal with Iran. The Israeli and Saudi 
fears are different, but if we want to reassure our friends about such 
a deal, we need to understand the source of their worries and take 
steps that address them. That does not mean accepting fears that we 
think are misplaced, but it does mean taking steps that can make us 
more secure and also signal to the Iranians they will pay a price for 
behaviors outside the nuclear area that we find unacceptable. 
Ironically, that may make a deal itself more likely.

    The Chairman. Thank you.
    Mr. Modell.

  STATEMENT OF SCOTT MODELL, SENIOR ASSOCIATE, BURKE CHAIR IN 
   STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Mr. Modell. Chairman Menendez, Ranking Member Corker, thank 
you for the opportunity.
    I would like to talk a little bit about my background 
before I get into my comments because it sort of colors what 
observations I want to make today.
    Prior to joining CSIS, I was in the Central Intelligence 
Agency, the Director of Operations, did five tours overseas. On 
my last tour, I oversaw Iranian operations there, Iranian 
internal operations, and oversaw a lot of the global external 
operations against the Iran threat network. So much of what I 
am going to say today has to do with observations on the basis 
of that experience that go into my thoughts on how the Iran 
threat network has evolved over the last 5 years, and in the 
aftermath of the nuclear deal, good or bad, how that Iran 
threat network is going to continue to be a problem for us.
    I would like to start with 2009 and the Green Movement. In 
2009, as the Green Movement began to coalesce and the Supreme 
Leader finally came around to understanding that it was a 
problem--it was an existential threat for the Iranian 
Government--they realized they had to dismantle it piece by 
piece, and they cleared out Evin Prison and they decided that 
they did not want to make the same mistake that the Shah had 
made in the late 1970s. And it is exactly what they did. They 
went and they dismantled it, and it had a profound effect on 
the Iran threat network. The internal security apparatus got 
better. The MOIS, the IRGC, the law enforcement forces, the 
Basij, everybody came together in ways that they had not come 
together before.
    Fast forward to a year or so later when they were faced 
with attacks on their nuclear facilities. The presence of 
Stuxnet led to some unintended consequences, led to 
strengthening of their nuclear facilities, their industrial 
security, their cyber security, their ability to detect 
personnel that were not deemed sufficiently wedded to the 
revolution, and it sort of strengthened the internal security 
apparatus, as well as their apparatus overseas, the Iran threat 
network.
    Fast forward to 2012 and 2013. The sanctions regime that 
was put into place against Iran--when the United States and the 
European Union initially went through with an oil embargo, the 
Iranian Supreme Leader had come to the conclusion that the 
price of oil was going to increase from about $100 a barrel to 
$200 barrel and thought that it would be unsustainable for the 
world. When that did not happen, he realized that they had to 
come to the table and negotiate. So I agree with the comments 
made by the chairman initially that the only reason that they 
are negotiating right now is because there was a collapse of 
the economy and that economic recovery was a must for them.
    I think the fundamental strategic calculus of the Supreme 
Leader remains the same. It is preservation of the regime at 
home. And they have broader regional goals that they are going 
to continue to push.
    Now, as far as a nuclear deal, I think there is going to be 
a nuclear deal. I do not think it is going to be a good deal. I 
think it is going to go on. I think there are going to be 
several phases to it. I think that it is going to be presented 
as a fait accompli to the international community. It is 
something we are going to have to accept and for several years 
try to figure out what it is going to look like and how to 
implement it. And I think, like Mr. Ross said, as it frees up 
money for the Iranian Government, it is only going to embolden 
the Iran threat network even further.
    As far as solutions, one of the things I have seen in the 
way that the U.S. Government is postured toward dealing with 
the Iran threat network--I think there are a number of things 
that we have already done that we can take advantage of 
particularly on the law enforcement side. I think in the 
presence of sanctions that are eased and the presence of 
credible war options being taken off the table, I think there 
needs to be more of a focus on law enforcement. I think that 
the Department of the Treasury needs to start looking closer at 
overseas financial operations. I think we need to start looking 
at counterthreat facilitation which would be going after the 
criminal networks that the Iran threat network has built up 
over the last couple of years in order to evade sanctions. I 
think that network is going to go on in the aftermath of a 
nuclear agreement. And I think having a better understanding 
about how Iran evades sanctions, their transportation networks, 
their intelligence networks, the way they move men, money, and 
material around 
the world, that feeds right into the necessity of coming up 
with a comprehensive compliance and verification mechanism, 
which I think will be extremely difficult.
    Like the chairman mentioned, we need at least two decades 
of figuring out if Iran is going to be an honest nuclear 
broker. For us to figure out just the military dimensions of 
that program, it is going to take quite a bit of time. I think 
figuring out how to use our law enforcement overseas to detect 
cheating is something critical that we will have to continue to 
focus on.
    In the case of Treasury, for instance, the Department of 
the Treasury has done a fantastic job over the years of 
collecting information on individuals, groups, and entities 
that are involved in the proliferation of sanctioned materials. 
We need to do a better job of working with foreign liaison 
partners to actually take advantage of that. There are a number 
of things we could be doing government-wide to take advantage 
of the information we have, and working with our allies to do 
more against the Iran threat network.
    As far as regional implications, as far as the GCC goes, I 
tend to agree I think they are shocked at what has transpired. 
And they are looking for answers and they are looking for 
reassurance. But I would also say that I tend to think that the 
bilateral security relationships between the United States and 
our gulf allies is strong. It is very strong. I think that they 
are beginning to contemplate things they had not contemplated 
in the past. But, nevertheless, I think the lack of 
alternatives for them, in terms of greater security 
arrangements, is going to force them to continue to rely on the 
United States.
    I think we should be very cautious when we hear statements 
from Saudi leaders and other gulf countries talking about the 
formation of joint military commands and GCC-specific entities 
that are trying to enhance interoperability and jointness. They 
have been talking about that for a long time. I think they are 
starting to talk about it again on the basis of perceived 
weakness on our part. But I think there is enough reassurance 
and I think there is enough long-standing faith in the 
bilateral relationships we have in terms of security to keep 
those relationships going.
    I would argue that what is going on in Iraq is going to be 
particularly troubling. Soleimani I think is going to see that 
as an opportunity to actually do what he has not been able to 
do over the last couple of years due to budgetary constraints. 
New units are going come online. New proxies are going to be 
more deeply funded, and I think you are going to see a much 
more active Quds Force inside of Iraq.
    I think the same thing with Syria. As well as they have 
done in Syria in creating basically a nationwide Basij force 
for the Syrians, I think that is going to go on. They are going 
to look to make that permanent in Syria. I think the idea of 
the Shia crescent--there is truth to that, and they are going 
to continue to find ways to build on that.
    As far as regional implications of sort of an embolden 
Iran, I think when you look at their efforts further out in 
places like Latin America and Africa, I would give it a mixed 
review in terms of success. They have had a very difficult time 
establishing a foothold in places like Latin America. They have 
had to downsize recently because of budgetary constraints, but 
nevertheless, they are pushing intel officers and military 
attachees and new embassies into the region. They are doing 
what they can. But again, there is not as much receptivity in 
that part of the world as they would like. So I think they are 
going to continue to focus on their part of the world.
    So the regional implications of a nuclear deal and the 
influx of cash will be, I think, a near-term sort of up-tick in 
their operations within the Iran threat network.
    [The prepared statement of Mr. Modell follows:]

                   Prepared Statement of Scott Modell

    June 12, 2014 Chairman Menendez, Ranking Member Corker, members of 
the committee, good afternoon and thank you for this opportunity to 
testify on the regional implications of a nuclear agreement with Iran. 
I will briefly describe the mind-set of Iran's Supreme Leader and the 
Iran Threat Network, list some of the regional implications of a 
nuclear deal between Iran and the P5+1 countries, and offer 
recommendations for the administration and Congress on future efforts 
to counter one of our most pressing national security challenges.
             revolution, resistance, and the supreme leader
    After the 1979 Islamic Revolution, Iran set out to radically change 
its posture toward all nations, especially the United States. For the 
last 35 years it has kept its word, sponsoring terrorism, deceiving the 
international community about its nuclear program, supporting violent 
proxies against U.S. interests around the world, and above all, 
building a multifaceted global apparatus--political, ideological, 
religious, and criminal--to pursue a revolutionary agenda that 
envisions a new balance of power in the world.
    The Supreme Leader has consistently referred to ``resistance'' when 
describing Iran's struggle with the West, similar to the way Americans 
speak of freedom--as a nonnegotiable value and source of national 
pride. The concept of resistance is critical for understanding why the 
Supreme Leader continues to champion Iran's role as the leader of an 
``Axis of Resistance'' and openly condemn U.S. values, character, and 
foreign policy. It lies at the core of his strategic calculus and 
drives the pursuit of two fundamental goals: preserving the regime at 
home and promoting the revolution abroad.
    Khamenei begrudgingly supports the P5+1 nuclear talks, skeptical 
that the United States will follow through on the terms of any deal. He 
recognizes, however, that a deal is necessary to ease the pressure of 
economic sanctions and revive Iran's economy, but will not allow a deal 
to become the gateway to U.S.-Iran rapprochement. As Foreign Minister 
Zarif has stated, ``Iran is looking for common ground, not 
friendship.''
    The Supreme Leader's closest advisors, such as Deputy Chief of 
Staff Asghar Mir-Hejazi, former IRGC commander and military advisor 
Yahya Rahim Safavi, and Supreme Council for National Security Chairman 
Ali Shamkhani have explained that severe budget cuts have had negative 
impact on the ability of Iran to conduct overseas operations. This has 
taken a particularly heavy toll on the IRGC Quds Force, which has the 
largest role in Iran's external resistance mission.
                        the iran threat network
    The Iran Threat Network is the global apparatus that Iran has used 
for more than three decades to promote the goals of the Islamic 
Revolution. It consists of a network of government and nongovernmental 
organizations that are involved in crafting and implementing the covert 
elements of Iran's foreign policy agenda, from terrorism, political, 
economic, and social subversion; to illicit finance and weapons 
trafficking; and nuclear procurement and proliferation. Iran relies 
primarily on three organizations to coordinate and oversee the 
activities of the Iran Threat Network:

  <bullet> The Quds Force, an elite branch of the Islamic Revolutionary 
        Guard Corps, responsible for irregular warfare and asymmetric 
        operations, including a wide range of subversive activities 
        from nonviolent cultural and business fronts to direct support 
        to political resistance organizations and violent opposition 
        groups.
  <bullet> The Ministry of Intelligence and Security (MOIS) is Iran's 
        primary civilian intelligence agency. It has the lead role in 
        foreign intelligence collection and several covert action 
        programs, both at home and abroad. It works closely with all of 
        Iran's closest proxies in the region and second only to the 
        Quds Force in Iran's global efforts to export the Islamic 
        Revolution.
  <bullet> Lebanese Hezbollah has been Iran's strongest nonstate ally 
        since its inception in 1982. While Hezbollah's role in 
        projecting Iranian power has traditionally been tied to the 
        goals of fighting Israel and protecting Lebanon, it remains a 
        key element in fighting on the front lines in Syria, alongside 
        Quds Force advisors and trainers and Syrian army units.

    The Iran Threat Network is Iran's ``whole-of-government'' approach 
to preserving the regime at home and coordinating and promoting the 
revolution internationally. Its actions encompass a remarkable array of 
covert action, including covert influence operations, sanctions 
evasion, terrorism, training and equipping Islamic militants, and other 
so-called ``resistance activities.''
              the regional implications of a nuclear deal
    Weak or strong, comprehensive or limited, any deal will take 
several years if not decades to implement. In many countries of the 
region, the status quo will make way for a nuclear Iran. No countries, 
rhetoric aside, supports preemptive strikes against Iranian nuclear 
sites unless there is overwhelming evidence of further Iranian 
deception. Iran will be under tremendous pressure to comply with a 
comprehensive agreement, but has no apparent intention of slowing down 
its drive to achieve broader regional goals, which often conflicts with 
U.S. and allied security interests. If a deal is reached, there are 
several implications to keep in mind:

  <bullet> First, an agreement will give a much-needed boost to the 
        Iranian economy. By most accounts, Iran stands to gain access 
        to nearly $100 billion frozen in foreign banks, as well as 
        billions more as oil export restrictions are lifted. At the 
        same time, several EU countries appear poised to return to 
        Iranian markets, adding billions of dollars more in potential 
        foreign direct investment and trade. All of this will provide 
        the leaders of the Iran Threat Network with the resources they 
        need to gradually return to previous levels of operational 
        activity. It means funding proxies that were either cut off or 
        cut back due to sanctions; reassessing the ongoing closure or 
        downsizing of Iranian embassies in nontraditional areas such as 
        Latin America; expanding joint military training and security 
        programs in Africa; and increasing funding for HAMAS, PIJ, and 
        the new Palestinian coalition government.
  <bullet> Second, several countries in the gulf should expect to see a 
        resumption of covert activity, including training, weapons, and 
        nonlethal support to local proxies, especially in Bahrain, 
        Kuwait, and Saudi Arabia, where Iran has a history of 
        supporting Shia opposition movements. The GCC countries will 
        also have to confront the growing threats posed by Iran in the 
        area of Computer Network Exploitation operations. Iranian 
        hackers employed primarily by the MOIS target the computer 
        systems of U.S. and gulf personnel, companies, and government 
        facilities. Iran has treated past Stuxnet attacks on 
        centrifuges at Natanz as a declaration of cyber war, and is now 
        responding in kind.
  <bullet> Third, IRGC Quds Force Commander Qasem Soleimani will find 
        ways of increasing military support to the Assad regime. 
        Keeping Assad in power will remain a strategic priority, mainly 
        because it strengthens Iran's relationship with its most 
        important partner in the region, Lebanese Hezbollah, but also 
        because in Iran's eyes there is no alternative. Soleimani will 
        also be focused on countering the growth of Sunni extremism in 
        Iraq, which has reached levels of violence unseen since 2007. 
        He will probably offer to increase current initiatives that 
        arm, train, and fund new and existing pro-Iranian Shia 
        militants in Iraq. Soleimani has more say over what Iran does 
        in Syria and Iraq than President Rouhani, enjoying the full 
        support of the Supreme Leader. His number one priority will 
        remain building an arc of influence and power across the 
        Levant, often referred to as Iran's ``Shia crescent.''
  <bullet> Fourth, there are few signs that a nuclear Iran will 
        increase the chances of a near-term nuclear arms race in the 
        Middle East. U.S.-GCC bilateral security relationships have 
        evolved for more than 25 years. Any strategic shift away from 
        the United States would take years given the depth of the 
        commitments involved. GCC countries are rightfully more 
        concerned about Iran's attempts to exploit the very real issues 
        of religious extremism, demographic pressures, and other 
        internal sources of instability that each Gulf State is trying 
        to address on its own.
  <bullet> Fifth, Iran has gone to considerable lengths to create a 
        global shadow apparatus designed to evade sanctions. It enables 
        the Iranian Government to support Islamic movements and pro-
        Iran militants around the world and spread the value of the 
        ``resistance'' via cultural, social, economic, political, and 
        business entities and organizations. That apparatus goes hand 
        in hand with the asymmetrical nature of almost everything it 
        does. The international community needs to develop a better 
        understanding of this apparatus for several reasons, but 
        largely because it is directly linked to some of Iran's most 
        destabilizing activities.
  <bullet> Sixth, as long as a nuclear deal does not address Iran's 
        ballistic missile program, which appears to be the case given 
        outright rejection of the idea by the Supreme Leader, Iran will 
        continue to develop long-range ballistic missiles that can 
        strike any target in the GCC and add further to its arsenal of 
        short-range artillery rockets that can strike coastal areas 
        across the gulf. Iran will attempt to improve the accuracy of 
        its missiles and rockets, and pursue the indigenous production 
        of UCAVs, cruise missiles, and possibly even nuclear warheads.
                            the way forward
    Even if sanctions and diplomacy lead to a nuclear agreement with 
Iran, the activities of the Iran Threat Network will continue to pose 
significant obstacles to Iran's diplomatic outreach to the gulf and the 
West. In some cases, lethal support to Shia opposition groups across 
the region also threatens both U.S. and international security. To 
address these threats, policymakers should consider the following 
recommendations:

  <bullet> Coordinate U.S. Efforts Against Networks. U.S. policymakers 
        should call for an interagency and international task force for 
        developing and deploying a comprehensive and global campaign 
        against the operational and strategic depth of the Iran Threat 
        Network. Such a task force would target the illicit networks 
        and operatives associated with the Iran Threat Network, 
        including its financial, business, and logistical support 
        networks. The goal should be a counter network disruption 
        campaign, modeled where appropriate, on previous successful 
        U.S. whole-of-government initiatives against defiant state 
        actors that combine overt and covert action, law enforcement, 
        sanctions, and containment.
  <bullet> Refine and Expand Soft War Initiatives. The Supreme Leader 
        repeatedly refers to the U.S.-led ``soft war'' as the single 
        biggest threat to the existence of the Islamic Republic. An 
        effective soft war should expose and neutralize the state and 
        nonstate actors involved in subversive activities that are 
        instrumental in marketing the Islamic Revolution overseas. At 
        the very least, this should include Quds Force, MOIS, and 
        Hezbollah operations and criminal activities. Of equal 
        importance are Iran's nonofficial cover organizations--
        religious, cultural, and charitable--as well as businesses that 
        effectively blur the lines between overt and covert activity.
  <bullet> Focus Efforts on Transnational Organized Crime. In addition 
        to being one of the world's most formidable terrorist and 
        paramilitary organizations, Hezbollah has become involved in a 
        global criminal enterprise involving money laundering, 
        racketeering, and drug trafficking. Indicting Hezbollah as a 
        transnational criminal organization would dispel its image as 
        an elite and ``pure'' resistance organization. We should 
        approach and counter Hezbollah from the vantage point of 
        strategic law enforcement, financial sanctions, and even the 
        International Court of Criminal Justice (for its long record of 
        global terrorism, for its involvement in the assassination of a 
        democratically elected head of state, and possibly even for war 
        crimes being perpetrated in Syria).
  <bullet> Developing Nonmilitary Policy Options. At any given time, 
        dozens of U.S. Government agencies are pursuing the same 
        elements of the Iran Threat Network. To improve the way 
        multiple agencies work against the Iran Threat Network, the 
        government has to be better organized. In relatively new and 
        developing areas such as Counter Threat Finance, it would go a 
        long way to work from an agreed-upon ``financial order of 
        battle'' that maps key networks on a transnational scale (e.g., 
        banks, exchange houses, front companies, trade-based money 
        laundering, shipping companies, etc.). In doing so, U.S. 
        Government agencies should draw assiduously on partner country 
        liaison services as part of a global effort to build a 
        coalition of like-minded states. An order of battle would 
        generate a series of nonmilitary or military-enabled policy 
        options that could serve as the basis of a strategic 
        intelligence and law enforcement campaign--not just a series of 
        strikes.
  <bullet> Focus on Counter Threat Facilitation. As long as Iran has an 
        agenda of creating new centers of power in the world and doing 
        so at the expense of the United States, it behooves us to 
        consider a law enforcement-led ``Counter Threat Facilitation'' 
        initiative. Such an initiative should emphasize strategically 
        planned law enforcement operations to expose illicit networks, 
        arrest their perpetrators, freeze assets and attack the Iran 
        Threat Network's crime-terror pipelines though the 
        international trade and banking system. It could go a long way 
        in weakening the illicit financial networks around the world 
        that buttress Iran's strategic foundations, revolutionary 
        resolve, domestic staying power, and power projection 
        capabilities.
  <bullet> Create Offices of Irregular Warfare. As sanctions are eased, 
        the U.S. Government will need to find other ways of identifying 
        and disrupting Iran's involvement in nuclear proliferation, 
        terrorism, and other threats to international security. If 
        sanctions and military options make way for other policy 
        options, the U.S. will have a much more difficult time 
        identifying and countering many of the Iran Threat Network's 
        illicit activities, which tend to be irregular or asymmetric in 
        nature. Creating offices of irregular warfare in various 
        government agencies would go a long way toward exposing and 
        damaging the criminal foundations of the Iran Threat Network. 
        While irregular warfare is usually the domain of the military, 
        several operationally robust and aggressive nonkinetic 
        initiatives should be considered. In the area of Information 
        Operations, for example, covert influence authorities ``with 
        teeth'' are necessary to more effectively bolster Iranian 
        moderates in Iran and to undermine Iran's message to audiences 
        in Africa, Central Asia, and across the Middle East. In the 
        still developing area of Counter Threat Finance, the Treasury 
        Department should be put on a financial and economic warfare 
        footing, or better integrated with interagency partners who 
        possess the needed level of financial operational authorities 
        and capabilities. Treasury needs to be more involved in 
        financial operations, particularly overseas, where there are 
        significant gaps of understanding in the areas of international 
        banking and finance. Finally, the U.S. cannot do it alone. The 
        Iran Threat Network has grown increasingly transnational, 
        making it critical to have the support of foreign liaison 
        partners who have the ability to hit Iran's threat facilitation 
        networks (transport, shipping agents, freight forwarders, 
        warehouses, pilots, airlines, etc.). Properly incentivizing our 
        partners to conduct higher impact operations against the Iran 
        Threat Network depends on creativity, money, and persistence. 
        The Rewards for Justice Program, or a version thereof, should 
        offer payouts to exceptional foreign government officials or 
        units who successfully assist U.S. Government initiatives.
                               conclusion
    A nuclear deal with Iran will bring in hundreds of billions of 
dollars as Iran recoups frozen assets, exports more oil, takes in 
foreign direct investment, enters into trade agreements, and starts to 
shrug off its pariah status. Yet, the strategic calculus of the Supreme 
Leader and much of the ruling conservative establishment is the same 
today as it was when the Islamic Revolution began: preserving the 
regime at home and deterring threats from abroad, while externalizing 
the revolution and resistance. The Iran Threat Network, free of 
budgetary constraints and emboldened as a newly minted nuclear power, 
is the engine of the regime and will resume Iran's pursuit of broader 
goals in the region. Look for a return to past levels of activity by 
elements of the Iran Threat Network, including units of the Quds Force, 
whose budgets have been cut back as a result of Iran's economic 
downturn. This means more operations in Syria, where Iran will continue 
to work closely with the Assad regime and Iran-trained, equipped, and 
guided militant networks; further attempts to support Shia activism in 
Bahrain, where Iran has attempted several times to create the 
conditions for regime change; continued use of Iraq as a transit point 
for illicit commerce coming from the gulf, and the movement of men, 
money, and illicit materiel across the Levant; deeper support to 
Hezbollah and the newly formed Palestinian coalition government; and 
likely increases in training, weapons, and funding to the Houthi rebels 
in Yemen and pariah states such as the Sudan.
    GCC countries will continue to harbor deep suspicion, distrust, and 
enmity toward Iran, well aware of Iran's unrelenting efforts to create 
internal dissent and destabilization through support to local Shia 
opposition movements. Still, they will refrain from pursuing their own 
nuclear programs (other than the UAE) and continue to rely instead on 
strong bilateral security partnerships with the United States. For its 
part, Iran will push Hezbollah to do some of its more complicated 
bidding in Arab countries, which Hezbollah sometimes agrees to, other 
times not. Finally, the peaceful intentions of a nuclear Iran will take 
decades to validate. Until that happens, expect more denial, deception, 
and dissimulation from the Iran Threat Network.

    The Chairman. Thank you.
    Dr. Kagan.

 STATEMENT OF DR. FREDERICK W. KAGAN, CHRISTOPHER DeMUTH CHAIR 
  AND DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN ENTERPRISE 
                   INSTITUTE, WASHINGTON, DC

    Dr. Kagan. Thank you, Chairman Menendez, Ranking Member 
Corker, I have rarely felt more superfluous as a witness since 
I agree with virtually everything that the two previous 
witnesses have said. I will do my best to try to add a little 
bit to that, but I am afraid this is not going to be a very 
confrontational hearing, at least in terms of the witnesses.
    As I wrote this testimony, I was watching Iraq die. I was 
reading the reports of the fall of Mosul to the Islamic State 
of Iraq and 
al-Sham, to the collapse of the Iraqi Security Forces in the 
north, to the really complete collapse of the Iraqi Security 
Forces not only in Ninewah province but also in Kirkuk and 
wondering whether and where they may be able to stop the ISIS 
advance, which is not at all clear at this point.
    I note that ISIS has been simultaneously conducting 
operations against its rival al-Qaeda affiliate, Jabhat al-
Nusra, in Syria where it continues to expand and to control 
large amounts of territory. Sectarian conflict in the region is 
continuing to expand and deepen, along with al-Qaeda safe 
havens and capabilities.
    You might ask what does this have to do with the topic of 
today's hearing, and I would say that this has everything to do 
with the topic of today's hearing. Iran is a belligerent in 
this regional sectarian war, and its regional activities will 
be shaped to a considerable degree by the approach it adopts in 
this conflict. We can only reflect on the implications of a 
possible nuclear weapons deal for the region in the context of 
how the Iranians are going about, and will go about, pursuing 
what they perceive to be their interests in the region.
    The nuclear issue is at the core of America's thinking 
about Iran with the exception of this committee, for which I am 
very grateful. But it is at the periphery of Iran's strategic 
calculus in many ways. The purpose of pursuing a nuclear 
weapons program for Iran is to enable other activities in the 
region. And so from the standpoint of what the Iranians will do 
in the region, with or without a deal, we have to understand 
that the nuclear program was never the central objective. It 
was a means to an end.
    I think the point that Ambassador Ross made about whether a 
deal would constitute a fundamental change in the attitudes of 
Iran toward the United States and the West is an important one. 
I think we should reflect on the atmosphere of United States-
Soviet relationships during and after the SALT talks. We had a 
brief period of detente during which the Soviets stopped none 
of the activities that they had been engaged in against the 
United States and its allies and around the world, and indeed, 
the period of detente ended with the Soviet invasion of 
Afghanistan.
    There is no reason--in fact, there is ample reason from the 
history of arms control agreements to believe that arms control 
agreements do not generally lead to peace and brotherhood and 
kumbaya moments. They can occur in the midst of extremely tense 
engagements as one side or both sides decide that it is not in 
their interest to pursue a particular weapons path at this time 
and prefer to take that problem off the table.
    But even if we could imagine a total change in the 
attitudes of the Islamic Republic toward us, which in my 
opinion would require the death of Ayatollah Khamenei who is 
absolutely never going to change his views on us, and his 
replacement by someone who has fundamentally different views, 
we would still have a problem. That would not actually bring 
Iran into alignment with our interests in the region. And I 
think we really have to understand this point.
    I began this testimony talking about Iraq because Iran's 
strategy in Iraq and Syria and Lebanon and Bahrain and Yemen 
and throughout the region has shown the enormous damage the 
Islamic Republic does by the methods that it uses to pursue its 
aims. Iran does not fill vacuums. Iran creates vacuums on the 
whole. Iran does not strengthen regional states. Iran 
undermines regional states because its preferred methods are 
through nonstate or substate proxies.
    And it is interesting--not surprising, but interesting--to 
see the way as Lebanese Hezbollah has come into the Lebanese 
Government, it has, nevertheless, remained an independent force 
that the Lebanese Government does not control, and the Iranians 
have assisted it to do so. And in fact, it has engaged in a 
unilateral invasion of Syria at Iranian behest, which the 
Lebanese Government certainly did not approve of.
    We have seen this in Iraq as well. Iranian efforts in Iraq 
have consistently undermined efforts to form coherent 
governance in Iraq even when you have had an Iraqi Shia Prime 
Minister, although I have never been in the camp of thinking 
that Malaki was an Iranian stooge.
    They are pursuing a similar approach in Yemen. They have 
co-opted to a considerable extent the quasi-Shia al-Houthis 
movement in northwest Yemen. And some years ago, we began to 
see for the first time al-Houthis running around chanting 
``death to America'' and repeating Iranian slogans. And the al-
Houthis have now established a de facto state independent of 
the government of Sana'a and are, in fact, working to extend 
that state. But the Iranians did not support only the al-
Houthis. They are also supporting the Southern Mobility 
Movement, the secessionist movement that is a Sunni movement in 
southern Yemen. In other words, the Iranian strategy in Yemen, 
which is, I would submit, in some respects more well thought 
through than ours, is a strategy that is fundamentally aimed at 
dismembering the Yemeni state.
    All of this would seem odd because we imagine the Iranians 
to be the enemies of al-Qaeda and threatened by al-Qaeda. And 
they certainly are threatened by al-Qaeda. But it is 
interesting that Iranian operatives in Syria have made no 
effort that we can see to go after the Islamic State of Iraq 
and al-Sham. And on the contrary, Assad's forces have been 
largely cooperating with ISIS because ISIS has been taking the 
fight to the Kurds and the Assad regime finds that of utility.
    So the point is that it is not simply that the Iranians do 
not like us. It is not simply that they are opposed to our 
interests. We can discuss whether the regime is evil or not, 
whether it matters or not, whether it is evil. What matters is 
that this regime is entirely committed to a set of strategies 
that revolve around a certain set of tools and approaches that 
are absolutely destabilizing to the region and absolutely 
fueling the sectarian regional war that is actually the most 
important American national security threat that we are facing 
because that regional sectarian war not only destroys any 
prospect of stability in a critically important region, but it 
is also the principal recruiting force for a global jihadi 
movement that is now regularly drawing recruits from the United 
States itself into these conflicts and most likely cycling them 
back.
    So anything that we do with Iran, deal or no deal, we must 
develop a strategy, as Ambassador Ross suggested, to compete 
with the Iranian means and methods and approaches in the Middle 
East because we must be prepared to contest with Iran not for 
control of the Middle East, not for Middle East hegemony, not 
for ideology, but for stability. It is very important to us 
that we have a peaceful and stable Middle East, and because the 
word ``stability'' is misused here very frequently, let me say 
I do not believe that stability flows from the gun of a 
dictator. I believe that we actually have to have some kind of 
representative state, some kind of inclusive government, some 
kind of support from the population. But that is not what the 
Iranians seek. So if we have any prospect of achieving our core 
national security objectives in the region, whether we have a 
nuclear deal or not, we must develop and execute a 
comprehensive strategy to press our interests in stability and 
contest the Iranian drive for instability in the region.
    Thank you.
    [The prepared statement of Dr. Kagan follows:]

              Prepared Statement of Dr. Frederick W. Kagan

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for this opportunity to appear before you today. As I write 
this testimony, I am reading reports of the fall of Mosul to the 
Islamic State of Iraq and al-Sham (ISIS) and the military maneuver of 
ISIS forces toward Baghdad. The Iraqi Security Forces in Ninewah have 
collapsed, and it is not clear where--or if--they will be able to stop 
the ISIS advance. ISIS is simultaneously conducting offensive 
operations against the rival al-Qaeda affiliate in eastern Syria, where 
it continues to control and govern significant territory. Sectarian 
conflict in the region continues to expand and deepen, along with al-
Qaeda safe havens and capabilities.
    What does this have to do with the topic of today's hearing, you 
might be wondering. The answer is: everything. Iran is a belligerent in 
this regional sectarian war and its regional activities will be shaped 
to a considerable degree by the approach it adopts to this conflict. We 
can only reflect on the implications of a possible nuclear weapons deal 
for the region in this context.
    The national security policy of the Islamic Republic of Iran is 
designed to prevail in the war Tehran believes the United States and 
Israel are waging against it. Supreme Leader Khamenei declared in March 
that international sanctions on Iran became ``an all-out war'' against 
Iran in 2011. He denied that sanctions have anything to do with Iran's 
nuclear program: ``One day, their excuse is the nuclear issue and 
another day, it is the issue of the enrichment. One day, it is human 
rights and another day, it is other such issues. Sanctions existed 
against us before the nuclear issue was brought up and they will 
continue to exist . . . even if the nuclear issue and these 
negotiations are resolved.'' He sees American enmity in everything: 
``From the beginning the enemy has made extensive efforts, and the more 
we advance, the clearer their work becomes. They use thousands of TV 
networks, radio programs, and the Internet to curse the Islamic 
Republic.'' He even blames us for al-Qaeda: ``Today Takfiri groups are 
working against Islam and Shias in certain regions and carrying out 
evil acts, but they are not the main enemies. The main enemy is the one 
who provokes them and provides them with money.'' Even the supposedly 
reformist Ayatollah Hashemi Rafsanjani declared in 2010: ``Radical 
Islamic groups such as al-Qaeda and the Taliban are the creatures of 
the espionage service of the United States and the West.''
    These are not isolated statements. The Iranian national security 
leadership regularly repeats and expands on them. Tehran has evolved a 
national security strategy around the concept of ``soft war'' that 
seeks to defeat the supposedly subtle and complex efforts of the U.S. 
and Israel to destroy Iran with everything from smart missiles to 
Internet pornography. This strategy sees any American influence in the 
Middle East as anathema and a mortal threat, and its goal is the 
complete expulsion of the U.S., the destruction of Israel, and the 
creation of a Persian hegemony. The Islamic Republic sees itself as the 
revolutionary vanguard that will overturn the current immoral, unjust, 
and infidel world-order in favor of its preferred religious-ideological 
vision.
    Iran seeks to be not merely a great-power rival to the U.S., but a 
force to destroy the U.S.-dominated (from Tehran's perspective) world 
system.
    The nuclear issue is at the core of America's current policy 
concern with Iran, but it is at the periphery of Iran's strategic 
calculus. The rational explanation for Iran's pursuit of nuclear 
weapons capability is the desire to be able to deter an American or 
Israeli attack on Iran once and for all. That is a defensive objective 
whose primary aim is to enable other operations to achieve Iran's goals 
throughout the region. Iran's nuclear program is meant to be a 
strategic enabler, not a strategy unto itself.
    What would happen, then, if Iran actually abandoned that program? 
The international sanctions regime would be unwound, large amounts of 
money and human capital would flow into Iran, the regime would be able 
to stabilize itself internally and would have enormously greater 
resources with which to pursue its regional goals. A nuclear agreement 
would advance the regional interests of the U.S. only if it led to a 
fundamental change in the nature of Iran's attitudes toward and 
relationship with the U.S. and its allies.
    Such a shift seems most unlikely, however. The entire ideological 
foundation of the current Iranian regime rests as much on anti-
Americanism as it does on anti-Zionism (without much distinction 
between the two). One could imagine a nuclear deal in which Iran yields 
almost all of its enrichment capability in exchange for full sanctions 
relief, but the tone of the agreement would be like the tone of U.S.-
Russian relations after the signing of the SALT treaty in 1972. There 
might well follow a period of detente, but there is no reason to 
imagine a wholesale change in the fundamental thinking, strategy, and 
approach of the Islamic Republic. The history of arms treaties amply 
demonstrates the degree to which the spirit of cooperation in which 
they are negotiated can be separated from an overall atmosphere of 
hostility.
    But even a total reversal of Tehran's attitudes toward the U.S. 
would not be enough to bring Iran into alignment with U.S. interests in 
the region. I began this testimony speaking about Iraq because Iran's 
strategy there and in Syria, Lebanon, Bahrain, Yemen, and throughout 
the region has shown the enormous damage the Islamic Republic does to 
regional stability through the methods by which it pursues its aims. 
Iran relies mainly on substate Shia militant groups combined with overt 
bribes to individuals and regimes to shape the strategies and policies 
of its neighbors.
    Lebanese Hezbollah, its primary regional proxy, participates in the 
Lebanese Government but maintains its own large armed force--which it 
sent into Syria at Tehran's behest in support of Assad. Iranian 
strategy in Lebanon has consistently sought to prevent the Lebanese 
Government from gaining control over Hezbollah--and thereby over much 
of southern Lebanon--even after Hezbollah became part of the 
government.
    Iranian strategy in Iraq has turned heavily on supporting and 
sustaining multiple competing Shia militia groups, political factions, 
and suborned individuals. This strategy has consistently hindered 
efforts to form a coherent Iraqi state. The militias themselves became 
a major driver of sectarian conflict from shortly after the U.S. 
invasion, in fact, and are responsible in no small way for the regional 
sectarian war we now face.
    Tehran has pursued a similar approach in Yemen, coopting the quasi-
Shia al-Houthis in the northwest, training, arming, and funding them as 
they have established a de facto independent ministate between Yemen 
and Saudi Arabia. Iran simultaneously has been providing assistance to 
Sunni separatists in southern Yemen, contributing to the collapse of 
that state.
    And Iranian strategy in Syria has been to back Assad in the conduct 
of a sectarian bloodletting of remarkable viciousness. That viciousness 
has powerfully fueled the regional sectarian war and become a magnet, 
rallying cry, and now training and logistical base for Sunni extremists 
from around the world.
    It is not just that the Islamic Republic is anti-American. The 
Islamic Republic is a polarizing sectarian force whose main methods of 
pursuing its goals destroy order, stability, and politics. It will seek 
to manage the escalating crisis through these methods and will instead 
make it worse. A nuclear deal will only give Tehran more resources with 
which to pursue its mistaken and misshapen strategy.
    A nuclear agreement that verifiably eliminated Iran's ability to 
acquire nuclear weapons capability would of course be desirable, 
although I do not believe that it is achievable. Certainly Tehran has 
not put anything on the table thus far that comes even close to meeting 
this standard. The Iranian penchant for pursuing secret nuclear and 
weaponization programs and admitting to them only after the U.S. finds 
them does not bode well for full transparency, particularly considering 
the Iranian conviction that the International Atomic Energy Agency is 
an espionage network for the West. There is also the question of how to 
ensure continued Iranian adherence to any agreement in the absence of 
sanctions. Sanctions have been absolutely essential in bringing the 
Supreme Leader to the negotiating table at all. Once lifted, they will 
not be easily or quickly restored. Without the credible threat of the 
rapid restoration of crippling sanctions, pressure on Tehran to abide 
by any agreement will be considerably less than the pressure that has 
been required to bring Iran to the table. Even a deal could only work, 
then, if the Iranians really undergo a fundamental change of heart on 
the nuclear issue--something for which there is no evidence whatever to 
suggest.
    Any deal comes with the risk of miscalculation and betrayal--the 
risk that Iran might after all retain the ability to field a nuclear 
arsenal. We are all focused on that risk. But a deal would also come 
with another risk--the risk that the U.S. would persuade itself that 
solving one problem solves all. In this case, on the contrary, solving 
one problem may very well make others a lot worse. But deal or no deal, 
the U.S. can only hope to advance (or defend) its interests in the 
Middle East through our own active engagement. Perhaps we must now 
speak of reengagement after the determined retreats of the past 5 
years.
    This is not a brief for military regime change in Iran, for 
reinvading Iraq, or for any specific policy. It is certainly not an 
argument for pursuing purely military responses to regional problems 
and the Iranian threat. We must instead use the moment of reflection 
afforded by this hearing to consider how to develop a strategy that 
competes with Iran while fighting al-Qaeda--all the while avoiding the 
trap of imagining that the one can be an effective ally against the 
other.
    The basic outlines of such a strategy are clear. The urgency of the 
situations in Iraq and Syria demands active American involvement in 
those conflicts, not necessarily through the deployment of U.S. combat 
troops, but certainly through the deployment of advisers, support 
elements, enablers (including air power), and intelligence to assist 
the majorities in both countries who seek to reject both al-Qaeda and 
Iranian domination. Hezbollah's invasion of Syria has exacerbated rifts 
within Lebanon and opened the possibility of driving a wedge between 
Hezbollah and other parts of Lebanese society. Aggressive diplomacy and 
well-targeted assistance could help weaken Hezbollah's control over its 
vital base, forcing it to refocus on Lebanon and away from supporting 
Assad. The U.S. must also work seriously--and not through speeches--to 
regain the confidence of our Arab allies, particularly Saudi Arabia and 
Turkey. America's retreat from the region has increased the costs of 
implementing such a strategy, but we must keep in mind that things are 
not going terribly well for Iran either, despite the current euphoria 
in Tehran. A strategy that combines continued sanctions with meaningful 
efforts to displace and disrupt Iran's proxies and Iran's strategies in 
the region is essential to creating any prospect of long-term change in 
Tehran's attitudes and of regional stability.
    I thank the committee for raising this important issue and for the 
opportunity to present my views.

    The Chairman. Thank you all.
    A lot to cover here. Let me say I see the GCC and others 
increasingly warming up to Iran. Last month, Saudi Arabia 
extended an invitation to Foreign Minister Zarif. Last week, 
the Emir of Kuwait made an official visit to Iran. It seems 
that President Rouhani may have been invited to the Egyptian 
President's inauguration ceremony. These are just a few 
examples, but it seems that Iran's international and regional 
isolation may be quickly melting away as the anticipation of a 
deal accelerates.
    What is motivating the culf leaders to engage Iran, 
especially after listening to your description, Ambassador 
Ross, about their concerns, which while the nuclear deal is 
something that is really a concern about their regional 
designs, in terms of engaging the Iranians? Is this hedging? 
And if so, what does that stem from?
    Ambassador Ross. First, I think we probably have to 
distinguish between some of the different actors in the region 
on the Arab side.
    The Saudi willingness to at least invite Zarif to come--by 
the way, he has not come yet. I would read that through a very 
careful lens. They may be prepared to talk to him, but I do not 
see any sign that the Saudis are about to somehow change their 
behavior toward the Iranians. Having a conversation with Zarif 
might be designed to sort of, A, impose a set of principles 
that if the Iranians want to see any improvement with the 
Saudis, this is what the Saudis require. And there is a lot of 
indication that is kind of what the message has been. Or, B, it 
could just be to see if there is any information they can 
acquire out of this kind of an exchange. But I do not see the 
Saudis at this point, certainly not with this King who is very 
clear on his view of the Iranians--I do not see a change there.
    In the case of Kuwait, historically the Kuwaitis had a 
different kind of relationship with the Iranians. They tried to 
be somewhat more in between, and they view the Iranians as a 
potential threat. They lined up more with the Saudis and the 
Emiratis in terms of their attitudes in the past year when they 
uncovered what was a plot within Kuwait. But I suspect right 
now the more traditional instinct to at least hedge bets or at 
least try to minimize--give the Iranians a reason to reduce 
reasons for hostility--I think that probably accounts for it.
    In the case of Egypt, look, Egypt's focus is much more 
internal than anything else. They are not going to do anything 
with Iran that would upset the Saudis. The Saudis are their 
principal bankers right now. That is their main focus. I think 
inviting the Iranians to the inauguration is more a sign of 
trying to demonstrate a broad participation with regard to that 
event.
    If you are talking about Oman, Oman has always had a 
different relationship with Iran.
    Qatar also has always tried to hedge its bets.
    The Chairman. You do not see a hedging of bets?
    Ambassador Ross. Not right now, not by the Saudis.
    The Chairman. So in this context, there are voices that I 
consistently hear, some in the Congress, others from beyond the 
Congress, who suggest that striking the nuclear deal with Iran 
is opening the doors to a much wider set of possibilities. As I 
listened to your collective testimony, it seems to me it does 
not open the door to a much wider set of possibilities of 
engaging Iran in a way in which they will change, particularly 
the asymmetric effort that they have within the region and 
beyond but will actually fuel the possibility for them to 
pursue a course of action that they already determined is in 
their interest. Is that a fair statement?
    Ambassador Ross. Certainly the way I read it. What I was 
trying to get at was it may well be that Rouhani and Zarif 
represent a constituency within Iran that would like to end 
Iran's isolation, would like to normalize relations, see that 
the best way to support the future of the Islamic Republic is, 
in fact, to have a greater normalization. Now, obviously, the 
Supreme Leader I think operates on a different premise. Somehow 
he was persuaded to give Rouhani a license to negotiate because 
the costs of isolation, the costs of the sanctions was seen as 
potentially threatening the Islamic Republic itself.
    But for him, he views us through a lens of hostility. He 
allows the IRGC al-Quds Forces to be their action arm 
throughout the rest of the region. There is no indication that 
Rouhani or Zarif have any impact on what the Iranians are doing 
throughout the rest of the region. And that was what I was 
trying to suggest. If you want to try to see a constituency 
that seems more pragmatic to have greater authority and somehow 
greater empowerment, the way to do that is to show the high 
costs of the behaviors that are unacceptable throughout the 
rest of the region.
    And I would also say, also the only way he is going to be 
able to sell the Supreme Leader on the kind of deal that is 
required, by the way, outlines of which I completely agree with 
what you presented--that is what is required for us to have a 
deal. The reason I say I do not think a deal is likely--Scott 
thinks a deal may happen. Here I would say I am more dubious. I 
am not saying it will not happen, but it is not going to happen 
unless there is an understanding that they get no relief on 
sanctions. They get no economic benefit unless, in fact, they 
roll back their program. Their approach to the negotiations 
right now is we will do some semblance of transparency and we 
should be able to add to the rest of the program. I do not 
believe there will be a deal under those circumstances.
    The Chairman. Let me ask you all this, and I would like to 
have your opinion. Former CIA Director General David Petraeus 
said in an op-ed published in the Washington Post--and I 
quote--``rather than freeing Washington to reduce the U.S. 
footprint in the Middle East and focus elsewhere, a nuclear 
agreement with Tehran is likely to compel us to deepen our 
military, diplomatic, and intelligence presence in the region 
in order to help partners there balance against increasing 
Iranian power. A variety of steps should be pursued to this 
end: approval of additional military capability sought by Arab 
partners and Israel, a renewed initiative to integrate the Gulf 
Cooperation Council countries' air and ballistic missile 
defenses, maritime and air exercises to demonstrate U.S. and 
partner capabilities in the region, and sustaining, if not 
augmenting, existing infrastructure and force posture there.''
    That is a pretty significant universe of things. How do you 
all feel about that? Dr. Kagan, let us start with you.
    Dr. Kagan. I am in violent agreement with that. A nuclear 
deal that lifts sanctions to any considerable extent will 
result in a flood of money resources, intellectual property, 
human capital, and other things into Iran. There are companies 
and countries around the world champing at the bit to get into 
a potentially massive and extremely lucrative market. That will 
flood the coffers of the state. We know that it will also flood 
the coffers of the IRGC.
    It has been interesting to observe the behavior of the IRGC 
leaders and their statements as these negotiations have 
proceeded. Initially they were very cold, very cautious, very 
suspicious, and very hostile. Now they are very supportive. 
They are constantly underlining their support for Rouhani and 
for what he is doing, and they are very clearly on board. And 
it is the behavior more of people who believe that they are 
really going to get something out of this than people who have 
been simply told by the Supreme Leader to get in line.
    So I think the assessment that the Iranian threat in the 
region will grow enormously is absolutely spot-on because I 
think Ambassador Ross has really hit it. I am not as sure that 
in strengthening Rouhani per se is going to achieve our 
interests. I am very confident that until and unless the 
strategy that Qasem Soleimani has been pursuing is shown to be 
bad for Iran and bad for the Supreme Leader in some way, the 
Iranians will continue to double down on that strategy.
    The Chairman. Mr. Modell, do you have any views?
    Mr. Modell. I would tend to agree. I think that with the 
influx of cash that comes as a result of a deal--and first of 
all, I would like to clarify that. I think the world will be 
presented with a deal. I do not know how good the deal is going 
to be because every indication I have is that Iran does not 
have any true intentions of actually honoring its obligation--
that has been very clear since the November agreement--to 
actually come clean on the military dimensions of its program 
which, as far as we know, in the latest IAEA Board of Governors 
report, at the present time they are not actually implementing 
the additional protocol and they have not answered a lot of the 
fundamental questions about the military dimensions of the 
program, the most troubling aspects of the program. So whatever 
that deal is, we have a very, very long way to go before we can 
actually call it a comprehensive deal.
    But to the extent that Petraeus pointed out that there is 
going to be an enhanced focus on the Middle East, I could not 
agree more because the necessity of coming up with a 
comprehensive verification and compliance regime is going to 
demand even greater focus on all of the things that Iran does 
to evade sanctions. And a lot of those mechanisms are in the 
region. A lot of the ways in which they would potentially cheat 
on any type of a nuclear deal, which I believe is very likely--
they basically obligate us to actually sort of double up our 
resources in figuring out what they are doing.
    As far as going back to the GCC issue, I want to make one 
comment. I very much agree. I think behind the charm offensive, 
I think when you talk to the Saudis and you talk to the 
Kuwaitis and others, I think they see through it. I think there 
is too much scar tissue over the last 30 years for them to 
simply embrace Iran. I think the existence of Hezbollah of the 
Hejaz years ago, which was used by Iran to attack targets in 
Saudi, other Hezbollah entities that were backed by Iran that 
are well known in the gulf left them with a very permanent, 
lasting impression that Iran has broader regional roles that 
are contrary to their own. And they are going to continue to 
focus on their internal security, and they will keep Iran at 
bay, to the extent they can. So I agree with the idea that 
there is going to have to be a greater focus on the Middle 
East, and there is going to be no pivot away from it.
    Ambassador Ross. I support what Petraeus was suggesting. 
The only difference I would have is I would not wait until 
after the deal. I would do it now. I would try to do each of 
those things now. And I think, again, it makes a deal more 
likely.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And I do want to say to the witnesses a great compliment as 
the chairman let each of you go over about 3 minutes in your 
testimony. And that just speaks to the importance we place on 
each of you. So thank you so much for being here.
    Mr. Ross, I know you have read the quote recently from the 
Supreme Leader of Iran saying today launching a military attack 
is not a priority from the viewpoint of Americans. They 
understand that they suffered a loss on the issue of Iraq and 
Afghanistan where they launched military attacks. There it can 
be said that they have changed their mind about launching a 
military attack.
    I am just curious as to how important that statement, that 
thinking process is relative to the negotiations that are 
underway.
    Ambassador Ross. I think it is fundamental. I think the 
Supreme Leader has got to believe that the price of the failure 
of diplomacy is simply unacceptable from his standpoint, and I 
think the extent to which he believes that when we say all 
options are on the table, he believes that they are not--that 
is what his statement means--I think it makes the prospect of 
diplomacy succeeding less than it would be otherwise.
    Senator Corker. And does anybody dissent?
    Dr. Kagan. No. I would go even further than that and say 
that what we are seeing, as we observe the statements of the 
Iranian military command, is a sense of triumphalism in Tehran 
that is remarkable. They really do appear to believe that they 
have defeated us in a very fundamental way, and that the 
nuclear deal will cement that defeat. So very far from feeling 
as if they are in a position of weakness and must concede 
things. I think the talks are most likely to fail in many 
respects because the Iranians think that they do not have to 
give us anything because they think they have already won.
    Senator Corker. While you have got the mike, your comment 
about the strategy that Iran is displaying in the region of 
dismembering, of destabilizing--one of the things I did not 
pick up in that discussion was toward what end. In other words, 
the role they are playing is very evident, but from their 
perspective, that is toward what end in the region?
    Dr. Kagan. It is toward the larger objective of Iranian 
regional hegemony and the establishment of a Shia crescent and 
the overthrow of states and peoples that they think have been 
unjustly ruling in areas of concern to themselves and to the 
establishment of solid proxies for themselves. And since they 
have not historically been able to make states proxies for a 
variety of reasons, they have become accustomed to working 
through certain kinds of proxies, in addition to which I would 
say that I think although the Iranians have a general 
destination in mind, a general vision of what they would like 
the region to look like, I am not persuaded that they have a 
very specific vision. And I am not persuaded that they are 
driving toward very particular end states in any of the 
countries that they are actually supporting. They are driving 
in a direction, and the direction is greater Iranian influence, 
driving the United States out of the region, isolating Israel, 
and empowering people who will pursue the ideology of the 
Islamic Republic and, more importantly, the interests of the 
Islamic Republic.
    Senator Corker. So, therefore, controlling the region but 
not necessarily through statehood but just through proxies and 
gaining strength in that way.
    Dr. Kagan. I think, obviously, they preferred the situation 
when Assad was governing Syria. The situation that they now 
have in Syria is much worse for them than it was before. But it 
does not seem to be that much of a priority for them, honestly, 
to build up the capacity of states as long as they can maintain 
the effective capacity of nonstate proxies.
    Senator Corker. Does anybody disagree with that thesis?
    [No response.]
    Mr. Modell. If you would not mind, I would like to make a 
comment just on the mind-set of the Supreme Leader very 
quickly.
    One of the things that has been mentioned here is that 
there is doubt as to whether or not the Supreme Leader thinks 
that any nuclear deal, good or bad, is going to lead to a 
greater rapprochement with the United States and the West. 
Based on everything that I have been reading lately on the 
Iranian side in the Iranian press, including the comments that 
were just mentioned, I think one of his redlines, if you had to 
actually define it, is exactly that. He does not believe that 
any type of agreement--it may lead to the revival of the 
Iranian economy, but the resumption of diplomatic relations 
with the United States at this point is definitely a redline. 
And I do not think that he would go there.
    There has been mention of Soleimani and his influence 
particularly with the Supreme Leader. When you look at the way 
that Iran has carried out its foreign policy in the Levant and 
Iraq, Soleimani has had a great deal of control. And Rouhani 
came into office knowing that to actually come in and try to 
take away influence from Soleimani in the area of foreign 
policy in the immediate region--I think he realized that was 
unrealistic. And I think to date you are seeing Soleimani still 
really calling the shots when it comes to what Iran does and 
what Iran is planning to do in that part of the world. And I do 
not think you are going to see a change on that.
    Ambassador Ross. I will just comment briefly on what Dr. 
Kagan said. I generally agree with him. When the Supreme Leader 
now takes a look at what is happening in Iraq, that is not a 
good thing. Their preoccupation with Iraq is something that is 
understandable. They fought a war for 8\1/2\ years. And with 
ISIS establishing itself and moving toward Baghdad, this is a 
challenge. This is a threat. So dismembering of states is a 
lever they have. It is a tool they have. I agree with what you 
said, that having someone like Assad in control of Syria where 
you are not consuming lots of resources, where you are not 
having to expend a lot of these proxies that you develop, they 
were using Hezbollah, Qutb Hezbollah, within Syria. Now they 
are going to have to mobilize all these Shia groups again and 
militias back in Iraq. So that is not a great scenario for 
them.
    Senator Corker. So let me flip it around. So you have laid 
out what you think Iran's thesis is, what their strategy is, 
what their objective is. If you look at U.S. policy, what is 
its objective? I mean, if you look at what happened in Syria, 
we basically have purposely strengthened Assad by focusing on 
chemical weapons. I have said this many times. The wisest thing 
he did for his own sustainability was to kill 1,200 people with 
chemical weapons, and that is all the administration now talks 
about is that. And yet, he has just been reelected, quote, 
quote, quote, to another term.
    In Iraq, you see what is happening. There is a guy named 
George Friedman who wrote a book that was the rage for a while 
talking about the next decade and how the United States really 
should cozy up with Iran. Is that really where we should be? I 
mean, if you look at the administration's policies--I mean, 
one, two, three, four--it would seem that that is the direction 
they are taking.
    Do you think that is something that is purposeful? Do you 
think this is by accident? What is the United States policy 
today relative to Iran?
    Ambassador Ross. Well, the way I would read the 
administration's policy is to focus on the nuclear issue first, 
to prevent the Iranians from being in a position where having 
civil nuclear power can be converted into a nuclear weapon. I 
think that is a genuine objective. I think that is what the 
administration is pursuing through negotiations.
    I think it is prepared to work with our friends in the 
region to counter what the Iranians are doing throughout the 
rest of the region. Obviously, at this point, the way the 
regional actors see it is that they do not have a high level of 
confidence that we are prepared to be active enough to counter 
the Iranians because they believe that our priority of the 
nuclear objective is so great that everything else is 
secondary. That is one of the reasons I said I would like to 
see us--some of the things I even suggested that we should be 
doing in the aftermath of an agreement I am actually suggesting 
we should be doing now because, A, it sends a message to our 
friends we are not prepared to sit back and acquiesce in seeing 
the landscape and the region change fundamentally against the 
interests of our friends shifting in favor of the Iranians. I 
think that would do wonders for our friends. But I think, as I 
said before, it would actually do wonders to actually reach an 
agreement.
    I do think the Supreme Leader makes a calculus about 
whether something is a threat to the well-being of the Islamic 
Republic. I do not think it is an accident that Rouhani was 
allowed to win the election. I use the words ``allowed to win 
the election'' quite deliberately. The Supreme Leader decided 
that the costs were too high of staying on the path they were 
on. So if you want to reach an agreement, it has to be clear 
that the costs are very high if you do not reach an agreement. 
And I think the more the administration can communicate that, 
they will do better not only in terms of their objective on the 
nuclear issue, but they will do better on their objective in 
the rest of the region as well.
    Senator Corker. If you could briefly respond, Dr. Kagan, I 
would appreciate it. I know my time is way up.
    Dr. Kagan. Senator, what I would say is that what the 
administration is actually doing in the region has had the 
effect generally of putting us on the side of Iran in the 
region rather than on the side of other potential partners. I 
have no idea whether that is deliberate, and I am reluctant to 
think that it is. I think it is a corollary of policies that 
are really focused on not being involved in the region and on 
seeing al-Qaeda as the principal threat in the region, which it 
is, and on seeing Iranian proxies as, in many respects, our 
best bet for containing the al-Qaeda threat without United 
States involvement, which I believe is a very bad 
miscalculation.
    Senator Corker. Thank you.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I do thank all three of our witnesses. I have found this 
discussion to be very, very helpful.
    Obviously, the best outcome would be for an agreement to be 
reached that accomplishes what the chairman spelled out--an 
agreement that eliminates a breakout capacity for Iran in a 
short period of time and that ensures it will not be a nuclear 
weapons state. Listening to your testimonies, none of the three 
of you believe that that is likely to occur within the 
timeframe set out for this agreement.
    And it seems to me that the United States can influence one 
of two outcomes at the end of July. One could be that we have 
not achieved the objective of preventing Iran from breaking out 
to a nuclear capacity, and we certainly do not have the 
transparency that was needed. And therefore, we should work 
with our international partners to continue and to expand the 
sanctions that are imposed against Iran because of their 
violations of their international commitments. We must try to 
keep those sanctions as strong as possible, looking for a new 
day and a new opportunity to advance our objectives of 
preventing Iran from becoming a nuclear weapons state.
    Or the second option could be, well, we have a framework. 
Let us build on it. Let us make sure that we have transparency 
to prevent Iran from continuing its nuclear program. Let us try 
to make incremental progress in getting them to weaken their 
capacity as a nuclear weapons state, and let us try to keep the 
sanctions as tight as we can during that period of time, 
recognizing there may be some concessions that have to be made 
as progress is made.
    It seems to me they are the two paths that we could go 
down. And it does seem to me that the United States is the 
driver as to which of those two courses we take since we are 
the dominant player in these negotiations.
    I think I know your answers, but I would like to get on the 
record what you think is in the best interest of the United 
States. Which of those two courses would be in our best 
interest?
    Dr. Kagan. Well, let us go from junior to senior.
    I think what Ambassador Ross has outlined is the right 
course of action, which is we should yield as little as 
possible in advance of the continuation of the negotiations and 
throughout the negotiations. We need to make it very clear that 
there is an enormous amount of pain for Iran if it does not 
come through with an agreement of the sort that is required and 
we all agree on what that is here.
    Senator Cardin. I hear you. I understand that, and I agree 
with that.
    My point is we are going to reach a point where we will 
either do, as Mr. Modell suggested, announce that there is some 
interim agreement--it will not be a complete agreement, as Mr. 
Modell is expressing. But the United States could influence a 
judgment to say that is not adequate and therefore we should go 
back to where we were prior to the beginning of this year and 
get the international coalition, again recognizing that Iran is 
not serious about it.
    What course do you think is in the best interest for the 
United States? To continue along the path of holding Iran--I 
think we are able to do this--to not advancing with 
transparency and negotiating the process. But the cost of that 
would be to give in on 
some of the sanctions. Or are we better off saying no, this is 
not working?
    Dr. Kagan. Okay. Senator, I will give you the direct answer 
to that. I apologize. Anyone who has purchased a rug in a 
Middle Eastern or, as I have, in an Afghan market knows that 
you have to be prepared to walk away from the table. You have 
to be prepared to walk out of the shop if the deal is not going 
toward what you need it to go to. And the worst thing that we 
can do is make it clear to the Iranians that we want a deal so 
badly that we will continue to dole out concessions, even as 
they are not meeting our terms, in the hopes that they will 
ultimately come to where we want them to be. So I would say at 
a certain point, if it is clear that they are not going to get 
there now, we should walk away, and walking away means bringing 
back as harsh a sanctions regime as we can.
    Mr. Modell. Senator, I would tend to agree. I think even 
though we are going to be presented with some sort of a deal 
that is going to take years to verify and confirm if it is 
real, I would say in the runup to that, we ought to give very 
serious consideration about making sure that--I agree with what 
Fred says. We should be willing to say no because I think there 
are simply too many indications----
    Senator Cardin. Do you disagree with me that the United 
States is sort of in the driver's seat here from the point of 
view of whether we are presented with some sort of a deal or 
saying we have not made enough progress, we are back in square 
one?
    Mr. Modell. The perception on the Iranian side is that we 
are not in the driver's seat. If you take at face value 
everything that they Iranian leaders are saying--and we are 
talking about the conservative hardliners--they are saying that 
the Obama administration is more desperate for a deal than Iran 
is. So I think that they are hoping for an easing of sanctions, 
and I think they are looking to enter into, quite frankly, a 
10- or 20-year process that will allow them to replenish their 
funds and get the Iran threat network back and get their 
economy going. And if they do truly have intentions of 
cheating, they will have plenty of time to do it. So, again, I 
think there are simply too many unresolved concerns for us to 
go forward.
    Senator Cardin. I certainly have questions. I am going to 
give Ambassador Ross a chance.
    I think the administration has been clear, though, what an 
agreement must look like. We have had several discussions about 
that. So I am not sure I want to identify myself with your view 
that the administration has already made that judgment. I am 
not sure they have. And I think that the United States can 
direct what path we take at the end of July.
    Mr. Modell. No, I agree. I just think there is a difference 
in perceptions right now.
    Senator Cardin. That is an important point.
    Mr. Modell. There is wishful thinking on the Iranian side 
that they can actually get to a point where they will have a 
little bit more flexibility.
    Senator Cardin. Ambassador Ross.
    Ambassador Ross. I do agree with that. I think the Iranians 
right now think they can get what they want without having to 
do what is necessary, and I think they are dead wrong. They 
will not. I do not think the administration is prepared to 
accept anything. I do think we are not going to get a deal by 
July 20.
    The real question you are asking is do we say, all right, 
stop it now and go back to the way it was prior to the joint 
plan of action or do we do what is built already into the joint 
plan of action, which is by mutual agreement, you can extend it 
another 6 months. It is clear that the other members of the 5+1 
will say let us extend it for the remaining 6 months. I think 
it will be difficult for the administration under those 
circumstances to say we are going to cut it off and walk away 
when the other members want to proceed and when our greatest 
effectiveness, at least with the sanctions, is when everyone is 
prepared to continue to implement those sanctions.
    Having said that, it is not going to be a given. This will 
not be a simple negotiation simply to extend because we will 
say to the Iranians, all right, look. You had to roll back your 
20 percent and you have done that. We need to see some other 
rollback. For example, we need to see some rollback of your 3.5 
percent. And the Iranians will say, well, we are not going to 
do that unless we get something. So it is not a given that you 
are going to be able to extend this because this itself is 
going to involve a negotiation.
    Right now, our focus is not on that plan B. Our focus is on 
trying to get a deal by July 20. I just think where the 
Iranians are is so far from where they need to be, unless this 
is just purely posturing, unless they are holding out until the 
last second and suddenly they are going to concede, but I doubt 
that. That is not the way I think they operate. So I think it 
is not going to be so simple to produce even the alternative 
that you are talking about, extending it for another 6 months.
    We are going to come to a point if there is no deal by the 
end of the year, then what do we do. And then I would say we do 
have to be prepared to walk away. I think we have to show the 
Iranians we are not so anxious for a deal. The deal we are 
prepared to accept is one that already involves a major 
concession to them. The major concession is that they will be 
allowed to enrich in a limited way. That is a big concession to 
them. And the price for that has to be that they go along with 
a very substantial rollback of the numbers of centrifuges, a 
ship-out of almost all of the enriched uranium material they 
have in country, a shutdown of Fordow, and Arak being converted 
into a light water reactor with then answers to the possible 
military dimensions of their program not because we are seeking 
to punish them but because how are we going to have a high 
level of confidence about what is going to happen in the future 
if they are not prepared to reveal what happened in the past.
    Senator Cardin. Well, I agree with that. And, of course, 
this morning's report is not very encouraging on those issues. 
Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Let me ask a quick question in response to 
something you said to Senator Cardin. There is a third option 
in terms of July 20, and that is you extend but exactly under 
the same terms and conditions.
    Ambassador Ross. That may be. That could be a fallback in 
the event. But I think going in, if there is----
    The Chairman. I am not an advocate of that, but I am just 
saying it is a possibility.
    Ambassador Ross. I think in the end, if you get a rollover, 
it will be a rollover with them being required to roll 
something further back and us also easing some additional 
sanctions.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    As I listen to what you say, am I correct in getting out of 
this that all of you think that the administration is not going 
to wind up with a deal here, that the Iranians are not going to 
be willing to go far enough that the administration will cut a 
deal? Briefly. Is that what I am getting out of your testimony?
    Ambassador Ross. By July 20, I think that is right. I am 
not saying that if we do not find a way to increase the 
leverage on the Iranians that we could not get a comprehensive 
deal. But right now, that is not where the Iranians are, and I 
do not think they think they need to be. And I think they are 
wrong.
    Senator Risch. Mr. Modell.
    Mr. Modell. I was going to say I think the world is going 
to be presented with some sort of a deal that is going to have 
to be worked out over time. I do not know what that deal is 
going to look like, but the more you look at the Iranians' 
insistence, just as they did from 2003 to 2005, in having 
50,000 centrifuges or 100,000 centrifuges eventually as part of 
a nationwide civilian nuclear program, I think eventually a 
deal is bound to come undone.
    Senator Risch. Mr. Kagan.
    Dr. Kagan. Senator, I am not prepared to say what this 
administration might or might not accept or might or might not 
announce. So I do not know.
    On the Iranian side, I think the likelihood that the 
Iranians will agree to a deal such as Ambassador Ross has 
identified and which we all agree is the minimum necessary is 
zero unless things change very dramatically, and the change is 
not going to come through diplomacy and negotiations.
    Senator Risch. Well, I guess my fear is that we will wind 
up with a deal and it is not going to be the deal that needs to 
be done. I got to tell you after watching negotiations, as this 
administration has proceeded, I have got a really deep-seated 
fear in that regard. Anybody want to try to change that for me?
    Ambassador Ross. Yes.
    Senator Risch. Okay, have at it. [Laughter.]
    Ambassador Ross. I believe that the administration 
understands that on this issue if you produce an outcome that 
leaves the Iranians in a position where they are a threshold 
nuclear state, where there are not very clear prohibitions that 
would make it difficult for them to then turn that into having 
a nuclear weapons capability, that that is not a sustainable 
deal. It is not good from the administration's standpoint. It 
is not good from the national interest standpoint. It is not 
going to gain support within the Congress. It is certainly not 
going to get support from key regional friends. And I do not 
think the administration is negotiating with the Iranians in a 
way at this point that suggests that they are prepared to cave 
and not meet a certain basic threshold, which I think in fact 
is close to what the chairman outlined in his opening 
statement.
    Senator Risch. Mr. Modell, do you share that optimism?
    Mr. Modell. I do not. I have to disagree on that. I think 
over the last 4 or 5 years, you have given the Supreme Leader 
numerous reasons for him to think that the United States will 
back down, that this President is committed to multilateralism 
and not confronting the Iranian regime, with the exception of 
the sanctions regime which we are now actually negotiating 
right now. But I think there is ample evidence to suggest that 
we are looking for a deal desperately, and that is what they 
believe.
    Senator Risch. Mr. Kagan.
    Dr. Kagan. I think the administration is going to be faced 
at a certain point with a very sharp dilemma as my colleagues 
on the panel have outlined. I do not feel like I can predict in 
advance how exactly it will react to that. My concern is that 
the administration seems to be seeking desperately for some 
sort of foreign policy success and this is it. And that is a 
mind-set that can be very dangerous when you are in a 
negotiation.
    Senator Risch. Thank you.
    Mr. Ross, I hope you are right and that Mr. Modell and I 
are wrong. But in any event, I guess time will tell.
    Very quickly. Let us assume we walk out of the rug market. 
How do we get the genie back in the bottle on the sanctions? We 
need some partners on this, and I use that word ``partners'' 
advisedly. One of those partners is Russia. It has been in all 
the papers. Our relationship has not been the best lately. How 
do we get the genie back in the bottle?
    Ambassador Ross. Let me just say one thing. When I was 
asked at the time after the events in Crimea unfolded, was I 
worried that we would have an immediate problem with the 
Russians on the Iranian issue, my answer was ``No,'' not 
immediately because they are not in the 5+1 negotiations as a 
favor to us. They do not have an interest in the Iranians 
having a nuclear weapon. So it is not to say if they decided 
this was the most important thing to us and it trumped 
everything else and they realized that they could use it as a 
lever on us on other issues, that they would not do that. They 
would. But they have their own interests here.
    And it is interesting that in the negotiations that have 
been going on so far--and one of the reasons I think that you 
have this high-level bilateral discussion that took place this 
week with the Iranians was precisely because the 5+1 has 
actually held together in terms of saying that where the 
Iranians are is not going to make a deal possible.
    Now, can I say that will hold forever? I am not so sure. If 
the Iranians were to suddenly come in and change their position 
and adopt a position where they offered concessions that fell 
well short of where we want to be, maybe they would be able to 
play upon the differences in the 5+1. But that has not been the 
Iranian behavior so far. And partly--here I agree with my 
colleagues--it is because the Iranians think they do not have 
to do it. Well, unless we correct that impression, there is not 
going to be a deal.
    Senator Risch. I think the thing that has troubled all of 
us here is we have all watched the media reports about this 
flood of business people that are going in there and getting 
ready to do business, as if the sanctions are done and over 
with. And that really troubles me about trying to put that back 
in the box. It seems to me it is going to be very difficult.
    Mr. Modell, my time is almost up. Do you want to take a run 
at this real quick?
    Mr. Modell. I was just going to say I agree with Mr. Ross 
on those comments with regard to the Russian mind-set and the 
P5+1, but I would also be very careful about disregarding 
entirely the possibility of a new strategic partnership between 
Iran and Russia on some level, particularly if we get into a 
long phased process for 5 or 10 or 20 years where we have to 
continuously reaffirm that they are following the additional 
protocol. But it is a tense process. Meanwhile, I think there 
is a good indication you are going to see growing signs of 
partnership between Russia and Iran behind the scenes.
    Senator Risch. Thank you.
    Mr. Kagan, do you want to close this out for me?
    Dr. Kagan. Yes. I agree what the Russians can do in the 
P5+1 and so forth may be limited. But I also agree that we are 
already seeing indications of an Iranian-Russian entente of a 
much deeper level than we have seen before. And what we have to 
recognize is that Russia is not a partner anymore. Sadalov 
Dimeter sees the United States as his enemy and sees himself at 
war with us. This is extremely clear from his statements and 
actions. And he sees our enemies as his potential allies. So I 
think we need to understand that core pillar, that Russian 
partnership as a core pillar of American strategy toward Iran 
and Syria--that pillar has collapsed. And we need to 
contemplate what we are going to do in the aftermath.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Menendez, for chairing 
this hearing, and I want to thank our witnesses for appearing 
today as we consider the very difficult potential implications 
of a nuclear agreement with Iran regionally and globally.
    I do share the administration's ultimate goal, stated goal, 
of reaching an agreement that denies Iran the ability to 
acquire nuclear weapons capability, and I do continue to hope 
that a final deal could be reached that would include the most 
comprehensive inspections and verification regime possible so 
that we may irrefutably prevent Iran from acquiring a pathway 
to a bomb.
    However, I share the skepticism and concerns expressed by 
this panel. We should have no illusions about these 
negotiations. The Iranians have given us no reason to trust 
their intentions, and any final agreement in my view must 
dismantle Iran's enrichment infrastructure and address the 
military dimensions of Iran's nuclear program including 
particularly its ICBM capability.
    So we also have to consider the regional implications and 
the legitimate and shared security concerns of our vital and 
trusted allies, principally Israel, and many others in the 
region.
    As the chair of the Africa Subcommittee, I am also 
increasingly concerned about Iran's not just charm offensive, 
but active engagement across the continent to find diplomatic 
and potential military or economic allies as they continue to 
spread their influence 
and seek ways to break out from our efforts to impose 
meaningful sanctions.
    Ambassador, as you suggested in your written testimony, 
there is no deal. There is no pathway to a deal unless the 
Supreme Leader is convinced that if diplomacy fails, they will 
be enduring severe economic pain and the high probability that 
force will be used to destroy the investment that they have 
made in the nuclear program.
    I am cautiously encouraged that the sanctions regime has 
not come unraveled, that the negotiations have gone this far, 
and yet sanctions have largely remained effectively in place. 
And I agree with the dynamics you point to that suggests that 
the Russians may remain engaged with this at least for the 
moment.
    What do you see as the greatest risk? I agree with Dr. 
Kagan. Having negotiated in a number of souks around the world, 
you have to not just be willing to walk away. You have to walk 
away for there to be a deal.
    So what is the most important weak point of our ability to 
sustain a meaningful, a punishing sanctions regime given that 
we may well have to walk away?
    Ambassador Ross. Well, the weakest point would be if some 
of the countries that, prior to the joint plan of action, were 
actually cutting back on their oil purchases stopped doing 
that. I guess the question is what is the best way to ensure 
that they do not do that. There are two different mind-sets 
there.
    One is, again, you continue to highlight, look, you do that 
and you pay this terrible price with us. Now, obviously, that 
imposes a price on us as well.
    The other is to be able to use what is the Iranian 
nonresponsiveness. Again, when we say walk away, we should be 
prepared to walk away. But one of the values of having 
demonstrated a readiness to negotiate genuinely and in good 
faith is that you expose the Iranians. I said before our 
readiness to be prepared to allow an outcome where they are 
allowed to have limited enrichment is a big concession. So if 
they are allowed to have limited enrichment but they are not 
prepared to do a deal, one of the things we are doing is we are 
exposing that. The fact of the matter is they do not want civil 
nuclear power. They want the option of being able to have a 
nuclear weapon, and they are not prepared to give it up. Now, 
the more you can expose that, the more you are going to be able 
to sustain I think the collective enforcement of sanctions that 
we have right now.
    Senator Coons. Well, Ambassador Ross and Dr. Kagan both, if 
Iran is allowed to retain some element of a domestic enrichment 
program, what do you think are the consequences of that? The 
UAE in a civil nuclear agreement with the United States gave up 
its enrichment capability, and I think if we get presented with 
a deal where there is anything other than the most preliminary 
or basic civil enrichment capability remaining within Iran, I 
think it has very negative consequences regionally and 
globally. But I would be interested in what you think.
    Ambassador Ross. Look, there is no question that from a 
strictly nonproliferation standpoint, the best outcome is no 
enrichment. But that is probably not something that can be 
achieved. The question is, what do you say to a country like 
the UAE? I think what you say to them is look at what is being 
imposed on them. The kind of verification regime we need is the 
equivalent of what we had in Iraq. Do you want to have the kind 
of intrusion? If you want to go ahead with enrichment, that is 
what is going to be required. You do not have the same kind of 
sovereignty that you have today. So I would say you can show, 
yes, you did something that was the right path, but the 
agreement here that they are adopting is one that imposes 
limits on them that you would not want to have to face 
yourself.
    Senator Coons. Is it credibly possible for us to sustain an 
inspection regime over the long term that will actually provide 
the needed transparency and reassurance to Israel and to the 
United States?
    Ambassador Ross. Well, it better be. Look, we should not be 
prepared to agree to an outcome where they have an enrichment 
capability even if it is limited because we know from their 
past behavior--you know, the old saying--Ronald Reagan's saying 
was trust but verify. Well, my approach with the Iranians is 
distrust and verify. So it better be.
    Dr. Kagan. Senator, if I could take a shot at that, I have 
got a very direct answer, which is ``No.'' I cannot imagine any 
verification regime that could actually provide the kind of 
guarantees that Israel or other allies would require partly 
because there never has been such an inspection regime.
    The Iraq inspection regime, we should remember, failed and 
it failed in the most interesting possible way. It completely 
failed to identify the fact that Saddam actually did not have 
the nuclear program. And as a result, it led everyone in the 
region to believe that he did, and it led us to believe that he 
did.
    It is hard for me to imagine that it will more effective in 
a country the size and shape of Iran with the terrain of Iran 
and with the degree of investment in digging that the Iranians 
have done.
    But I would just like to make one other point very quickly, 
which is that we are in the process of down-scaling our own 
intelligence capabilities at a dramatic rate, along with our 
military footprint and our military capabilities. And you 
cannot divorce the question of the verifiability of any deal 
from the question of what our intelligence capabilities are 
going to be down the road.
    Senator Coons. I agree.
    Ambassador Ross. It is a reason, by the way, that you do 
have to have a very thought-out and preplanned approach to 
dealing with the consequences of violations.
    Senator Coons. If I might ask a last question, Mr. 
Chairman.
    Ambassador, following up on that exact point, there are 
some publicly expressed concerns by the Israelis about their 
ability to rely on our security guarantees, and there are some 
repeatedly expressed concerns by Congress about our level of 
engagement with oversight for a potential deal and then its 
execution.
    What advice might you have for the administration and for 
us about reassuring the Israelis and engagement by Congress--by 
the engagement by the administration with Congress in the 
advance of our being presented with some deal?
    Ambassador Ross. Well, it is two points that I was making 
in the testimony. One, we should have a systematic conversation 
with the Israelis about what cheating could look like, how best 
to deal with it, and specifically what the actions would be in 
the event of certain kinds of cheating, including not just 
sanctions but even the use of force. And we should be prepared 
to provide the Israelis some additional capabilities, with a 
clear understanding that if there was cheating and we did not 
act, we would support their acting and they would have the 
means to do so.
    Senator Coons. Thank you, Ambassador. Thank you to our 
panel and your testimony.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you all for being here. Fascinating testimony.
    I did not want to miss this opportunity. Today is the fifth 
anniversary of the fraudulent election that brought Mahmoud 
Ahmadinejad to power and the protests that followed it. And I 
highlight this fact because I think that 5 years ago the 
administration missed an opportunity to stand up for human 
rights and for the aspirations of the Iranian people in those 
weeks following that fraudulent election. And I think that has 
had repercussions since.
    In that vein, the general matrix that has been outlined, as 
we have discussed this issue, has been that these sanctions are 
in place to deter, punish, and hopefully to encourage Iran to 
stop enriching and reprocessing because that gives them that 
basic capability.
    And then the second area argument has always been that if 
in fact they ever break out and go toward a weapon, the word 
that is always used is all options are on the table. But what 
that really means is a military option. And yet, I now 
believe--and I wanted to get your opinion--that more than ever 
before in recent memory there is a solid opinion now on behalf 
of the leadership of Iran, especially the Supreme Leader, that 
the United States is not willing to use military force. I think 
that he believes that we will use economic sanctions. I think 
he believes we will use soft power and all sorts of other 
things, but I do not believe that at any time in recent memory 
have they believed more strongly than they do now that the 
United States is not willing and/or capable of using any sort 
of military force against them potentially no matter what they 
do. And the implications that that is having on these 
negotiations I believe are important.
    And I wanted to get your sense of whether you believe that 
that is true, and more importantly, was there ever a time in 
recent memory where they had perhaps a different opinion or 
where they perhaps had concerns that the United States, in 
fact, would engage in some sort of military action? Anyone can 
go first. If you agree with me, go first, please. [Laughter.]
    Mr. Modell. One of the things I mentioned in my opening 
comments was exactly that. In 2009, I think the United States 
missed a major opportunity, probably the first real opportunity 
in the 30 years at that point to actually effect some sort of a 
permanent change in the foundation of the regime. We failed to 
capitalize on that. In 2009, when the movement against the 
fraudulent elections coalesced into the Green Movement, the 
people in the Green Movement were wondering what kind of 
support they should expect from the United States, and that 
ended up to be no support at all. It was never designed to be a 
militant move to violently overthrow the regime, but at the 
same time, it sent a real strong message to the reformist 
movement in the country that we were not really willing to do 
anything and that instead, the President was elected on the 
idea that he was going to engage with anybody, be that Hugo 
Chavez in Venezuela or the Supreme Leader in Iran, that it was 
all about engagement. So that started the sort of second track 
of engagement. But again, it was a very clear message to the 
Supreme Leader of weakness on his part, and I think that that 
has been verified over and over and over again.
    I think when you look at where we are now, I firmly believe 
that he thinks that we are here negotiating out of desperation 
for a deal. And I am not convinced that he thinks we are going 
to walk away. When he repeatedly makes comments, as the 
chairman mentioned, that the United States is unwilling to take 
military action, I think he honestly believes that.
    Dr. Kagan. I think I will pick up the hint that you I think 
were throwing out there, which is, yes, in 2003 I believe that 
the Iranian regime and the Supreme Leader thought that Iran 
could quite possibly be next and really did seriously--much 
more seriously than the Bush White House--consider the 
possibility that we would finish in Iraq and pivot to the east 
and take out the next country in the Axis of Evil.
    Senator Rubio. What did they do as a result of that?
    Dr. Kagan. They suspended the nuclear program and took a 
variety of steps to conceal it and to try to reach out to us in 
a variety of ways. More or less, the sincerity of those 
outreaches is open to question. But, yes, that is clearly what 
happened.
    I would like to parse what you said about their belief in 
our capability a little bit more finely, though. I do not think 
the Supreme Leader believes that we do not have the capability 
to remove him from power if we chose to do so. I think he 
believes that we do have that capability.
    Senator Rubio. And just to clarify, I did not mean the 
technical capability. I meant the political capability.
    Dr. Kagan. Exactly.
    Senator Rubio. The political will.
    Dr. Kagan. This is entirely about will.
    Ambassador Ross. I agree that in 2003 they feared that they 
were next, and they put a proposal on the table. It was just 
suspension. They actually put a proposal on the table through 
the Swiss that would have been far-reaching. There was some 
question was it genuine or not, but it was never really tested.
    By 2005, 2006, they had walked away from the suspension 
without any consequence to them. At a point in 2006, 2007, when 
we were really tied down in Iraq, they no longer had the same 
kind of fear.
    The Supreme Leader's statement now that we will not use 
force is something he has not said before. So clearly, they 
have the perception that we will not. And it is very important 
for us to change that perception. If we want to have a deal, we 
have to change that perception.
    Senator Rubio. I would highlight, as you--I think maybe 
someone mentioned this earlier on the June 4 speech. It was 
underneath a banner that said America cannot do a damn thing. 
They have used that slogan before. I do not think it has meant 
more to them than it does today. And we recently saw as well 
their generals bragging that one of our bases is now within 
reach.
    With the minute I have remaining, I wanted to pivot briefly 
to Iraq because I think it is related to Iran, and it is an 
interesting dynamic. Obviously, the situation in Syria--not 
that they were not close already, but the situation in Syria 
has brought that regime closer and under more of the influence 
of Iran than ever before, quite frankly dependent on Iran and 
Russia for their survival. And now we are seeing something 
similar potentially play out in Iraq where increasingly because 
of ISIL's gains over the last 72 to 96 hours, we have to assume 
that the Iranians are all in with regard to pushing back 
against that. And we know that there was the presence of these 
Shia militias, many of whom have been equipped and trained, if 
not all of them, by Iranian forces.
    From a regional perspective--and of course, the interesting 
dynamic is that in many respects we actually share an enemy in 
ISIL even though our interests may not coincide in terms of the 
long term. In fact, they do not coincide in terms of the long-
term future for that area.
    But I wanted your take on what is happening now with regard 
to Iraq and Malaki and that government's increasing dependence 
and/or reliance on Iran for potentially its very survival.
    Dr. Kagan. A couple of quick points about Iraq. One is the 
Iranians, I do not believe, have the capability to help Malaki 
regain control of his country any more than they have been able 
to enable Assad to regain control of his country. We continue 
to have a theoretical opportunity in Iraq because we can offer 
the Iraqis something that the Iranians cannot. We have both the 
capability 
and the desire to help the Iraqis reconquer all of their 
territory from ISIS, which I believe that we could with the 
rapid use of military force, which is certainly not going to 
happen under this administration.
    So we are in a situation, as we always have been in Iraq, 
which is that the Iraqis will take Iranian assistance, 
especially when there is nothing else on offer, but they would 
prefer our assistance because we can offer them things that the 
Iranians cannot.
    Another thing that we have to be very clear about, in a 
certain sense we have been having a fictional conversation here 
about sanctions. In the real world, unless we are prepared to 
sanction Iraq, the sanctions regime is unraveling anyway. The 
Iranians have been working aggressively to expand their ability 
to export oil and many other things through Iraq. We have 
turned a blind eye to it. I understand that in the current 
context. I do not see how we could sanction Malaki while we are 
trying to help him fight for his life. But what that means is 
that there is an oil spigot in the Persian Gulf for Iranian oil 
that we will not be able to control. And as we talk about 
sanctions, we need to keep that in mind as well.
    Ambassador Ross. Can I make two quick points?
    First, I think we should be prepared to help in Iraq, given 
the stakes, but there should be conditions for Malaki. One of 
the reasons we are where we are is precisely because the way 
Malaki has governed, which is to say he has governed in a 
completely noninclusive fashion. He has basically alienated the 
Sunnis in a way that was not required. And if we help, there 
has to be some change in his behavior in order to do this.
    The second point is if we help, it cannot look in the 
region like--yes, ISIS is a threat to us and to our regional 
friends, but it cannot look like we are prepared there to help 
to counter them, but we are not prepared to go against what the 
Iranians are doing in Syria because then it looks like all we 
are doing is helping to shift the regional balance more in 
Iran's favor.
    Dr. Kagan. And I agree with both of those comments.
    Mr. Modell. The only other thing I would add, Senator 
Rubio, is when you look at the U.S. Government forces that are 
involved in monitoring the Iran threat network around the 
world, there are things that we could potentially do to address 
some of the issues you are talking about, particularly Iran's 
potential movement to a greater extent into Iraq. I will give 
you an example.
    The Department of the Treasury has done a fantastic job in 
some senses, but in others, it just does not have the resources 
to do what it needs to do. So OFAC designations. When you look 
at the thousands of Iranian entities or individuals and groups 
who have been designated over the years as violators of 
sanctions, what has happened as a result of that? They simply 
close this door and open up another one. There needs to be a 
comprehensive look at what Treasury's OFAC designations--what 
the impact of that has been and what gaps we need to address 
because if you are looking at ways--in the context of the 
greater nuclear issue, are we going to have a comprehensive 
long-term verification mechanism that really works? Well, a lot 
of the cheating that has gone on over the years could have been 
prevented if we had better overseas capability, quite frankly, 
not on our own but with liaison partners to actually verify the 
designations are being honored.
    The Chairman. Senator Flake.
    Senator Flake. Thank you. I appreciate the testimony.
    Ambassador Ross, we are coming up right now at the end of 
our negotiating period and determining whether we want to 
extend or not. What concerns are there that if we do not 
continue, that our allies might leave us behind, figure nothing 
will ever be good enough for the Americans, we will cut our own 
deal? Is there a concern about that? Should we be concerned 
about that? And is that something that motivates us to stay at 
the table?
    Ambassador Ross. I think the answer is ``yes'' because I 
think the other members of the 5+1--precisely because the joint 
plan of action built into it a renewable 6 months for a total 
of 1 year by mutual agreement, I am quite certain that all the 
other members are going to say, look, rather than walking away, 
let us take the other 6 months and let us see if we can, in 
fact, reach a comprehensive agreement.
    I think beyond, at the end of the next 6 months, we may be 
in a different place. But a lot depends upon the Iranians. Are 
they nonresponsive? Do they stay in the position they are right 
now, which signals they are not close to understanding or 
recognizing what is being required? They are talking right now 
about wanting thousands, 30,000, 100,000 centrifuges, not 
rolling back their program.
    Senator Flake. Any comment on that, Mr. Kagan? Just to back 
up a bit, I think we all can see that Iran is at the table 
because of these sanctions, and it is because that we have had 
cooperation from our, in particular, European allies on this. 
And we need them to stay at the table. We need this to be Iran 
versus the West rather than Iran versus the United States in 
terms of sanctions. So how much of a motivating factor is that 
for the United States to stay at the table because we need our 
allies with us?
    Dr. Kagan. I think Ambassador Ross made a very excellent 
point, which is that deciding that you want to stay at the 
table is one thing. Actually getting an agreement to stay at 
the table and extend is another thing. That technical 
discussion about what the extension would look like is probably 
going to be more determinative of whether we can do this than 
anything else.
    I am a little bit less worried at the prospect that if we 
walk away from the table, the European states will decide the 
heck with us and do a unilateral deal with Iran. There are a 
lot of other issues in play. As always, we talk about this in 
isolation. There is tremendous nervousness about Russia and the 
threat to NATO in general. There is a tremendous concern about 
alienating the United States even more to the point where we 
withdraw entirely at a moment when people seem to need us a 
great deal. And so I think a lot of calculations would be made 
regarding whether we actually are going to see European 
partners just torpedo us entirely. So I am a little less 
pessimistic about that even though I would be surprised if we 
ended up walking away.
    Senator Flake. The concern about extension and going for a 
full year, obviously, is if Iran is gaming the system now in a 
way that puts them closer to being a threshold state. Is it 
your opinion, Mr. Modell or Mr. Ross, that this time period 
does allow them to get closer? Or are they truly rolling back 
in a way that benefits us in terms of a final deal?
    Mr. Modell. I would say I think they are already a nuclear 
threshold state. They have the ability. If they wanted to cross 
that threshold and to make that move to actually break out, 
they could do that. I do not necessarily think that they are 
trying to delay for another 6 or 12 months. I think they 
honestly want to see if they can actually work their way into a 
deal that will allow them to pursue an agenda that may not be 
totally transparent to us right now, particularly on the 
military dimensions of their program. But they need time to do 
that. So I do not think it is just simply a matter of buying 
time.
    But I would make a comment too. On the United States 
corporate side, we have talked to a number of companies, 
particularly in the energy field, who are like everybody 
wondering at what point it would be prudent to start taking a 
serious look about reentering the Iranian market. There is a 
great deal of reluctance on their part. Really. And it is not 
only in terms of the sanctions 
and the political risk involved, but it is simply there are a 
lot of fundamentals in terms of the deals that will be struck 
on production-sharing agreements and other forms with the 
fundamental agreements they would need to have in place rather 
than to even consider going back in.
    Senator Flake. Well, I think from what we hear, Iran 
thought that they might get more out of this interim deal than 
they actually are in terms of sanctions relief. It has been 
more difficult just because of the interlocking nature of these 
sanctions and the reluctance of people to get involved. So that 
is, frankly, a good sign.
    Ambassador Ross. I do not think, in answer to your 
question, they are not able to game the system very much, given 
the nature of this agreement. The one area where they have the 
potential to game is that they can do R&D on the existing 
centrifuges that they have. So they cannot deploy any new 
centrifuges except one of those that break down. But it means 
that the R&D that they are doing on the existing centrifuges--
and they have several generations--means at the end of this, 
they would be in a better position to move quickly. But the 
fact is during this time, that is the only area where they are 
able to do anything that potentially advance them. And the 20 
percent they have dismantled. So from that standpoint, they are 
a little bit farther removed from where their breakout 
capability might have been prior to the time of the deal.
    Dr. Kagan. I have to disagree with Ambassador Ross on one 
important point. There is a realm in which they can advance 
because this agreement has done virtually nothing to improve 
our ability to detect their pursuit of weaponization 
technology. And I have long believed that that is actually the 
long pole in the tent. They clearly have the capability under 
any scenario to process enough uranium to produce enriched 
uranium. We are just talking about timelines there.
    The challenges that they have been facing have been 
developing a working nuclear device small enough and reliable 
enough to put on a reentry vehicle and so forth. There is 
absolutely nothing in this deal in my opinion that has harmed 
their ability to continue to pursue that effort in any 
meaningful way.
    Senator Flake. Mr. Kagan, I was interested in your 
contention at the beginning that Iran's nuclear ambitions are 
secondary to their regional ambitions in other areas. If we 
were to strike a deal and get a deal that we are comfortable 
with and comfortable enough to move ahead, what would be our 
next step--the United States that is--in terms of trying to 
influence Iran in terms of its regional activities? Would we be 
in a much better position to have influence on them or not in 
your view?
    Dr. Kagan. I think it depends on whether or not the 
administration does what Ambassador Ross is telling them to do. 
If we were to right now design and implement and execute a 
strategy to combat Iranian influence around the region, put 
pressure on the Iranian regime and so forth in pursuit of a 
good deal, then we could emerge, theoretically, at the end of 
those negotiations in a better position. If we do not do that 
and if we do not work to strip away from them the capabilities 
that they are using to operate in the way that they are 
throughout the region, then a deal will simply open the flood 
gates and we will be in a much worse position.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Senator Paul.
    Senator Paul. Thanks to the panel for coming today.
    Since we have had some lessening of the sanctions with the 
interim agreement with Iran, people talk about them being 
easily reversible. I am not really so concerned about the 
technical aspect of being easily reversible, but I am concerned 
about whether or not the reconstitution of an international 
coalition, which I think the sanctions, I think everyone would 
agree, are not as successful if it is just us--I am interested 
in the panel's opinion on whether or not we have gone beyond 
getting everybody back together. Is there going to be the 
ability, if there is no deal or if there is the sense that Iran 
is evading even the interim deal, to reconstitute an 
international coalition to make sanctions effective? Where do 
you think we are in that spectrum of being able to reconstitute 
that?
    Ambassador Ross. I think the ability to sustain this is 
much greater when you can point to Iran's bad behaviors. So if 
in the end, they are not responsive and there has been clearly 
a serious effort to try to offer them something and they are 
not responsive, it becomes much easier to sustain this with the 
kind of collective enforcement that we are seeing.
    Mr. Modell. Senator, I would just add to that. When you 
look at the task before us and trying to figure out, is bad 
behavior going to occur in terms of illegal proliferation--
illegal actions on the part of the threat network that they 
have got in the region--one of the things that we have not done 
a good enough job of, I think, in the U.S. Government, is 
actually defining what a comprehensive verification and 
compliance regime needs to look like. It is not that easy 
simply to say that we are going to crack down on Iran. There 
are a lot of things that we do not do very well. There are a 
lot of risks that we are unwilling to take. There is a lot of 
liaison relationships out there with allied countries, by the 
way, that do not have the resources they need, that do not have 
the support they need, and do not have the transparency from 
us, including Israel I would say. Ambassador Ross made a 
comment earlier about the need for us to have actually a common 
understanding with regard to Israel as to what is it going to 
look like when we jointly try to pursue efforts to figure out 
if the Iranians are cheating or not. Half the time, we do not 
know what the Israelis are doing. They do not know what we are 
doing. There has to be better dialogue and transparency on 
sensitive regional and global issues if you are going to be 
serious about trying to figure out if they are cheating or not.
    Dr. Kagan. Senator, if the question is can we reconstitute 
the regime exactly as it was and continue to strengthen it in 
the way that we had been doing it; I am not sure. We certainly 
have the problems with Russia that we have. We have problems 
with China that we have. So I am not sure we are going to be 
able to continue to do that.
    However, I think that Scott has pointed out quite rightly 
that as long as we can keep the current resolutions in place 
and the current agreements in force--and I think that is a 
perfectly feasible undertaking--we have the ability to improve 
our own prosecution of the sanctions in a way that can bring 
additional pain on Iran.
    Senator Paul. One quick followup. All of you who feel like 
nobody is evading beyond or lessening the sanctions beyond what 
we sort of agreed to lessen them to--Russia and China and 
others--they are still adhering to the previous set of 
sanctions that supposedly are in place?
    Dr. Kagan. No.
    Senator Paul. But you do think they are.
    Dr. Kagan. Absolutely, yes. I am certain that they are and 
the Iranians are evading the sanctions in a variety of ways, 
including through Iraq, as I said.
    Senator Paul. And then the only other point I would like to 
make--and I think this is an important one because I try to 
think about these as if--you know, what a soldier thinks about 
our soldier unit that you might send back into Iraq, which I am 
not very excited about.
    We released three Moroccans from Gitmo a while back under 
the previous administration. They went home for a while and 
then they decided to go fight in Syria. They are fighting on 
the same side as we are in Syria. So people who hate America 
are on our side, which concerns me a bit and confuses me a bit.
    We are supporting a Sunni sort of movement. It has people 
we say we are not going to give weapons to, but we did give 
some to a military council that said recently that said they 
are going for the Golan Heights when they are done with Assad. 
That is confusing to me to be on the same side as people who 
are going to try to reclaim the Golan Heights.
    It is a Sunni resistance. It also has parts of ISIS in it. 
But now we are sort of supportive of ISIS. Not really, but we 
are on the same side as ISIS in one battle.
    So you tell a GI who is going to carry a gun and put his 
life down--and I know a guy from my neighboring town lost both 
legs and an arm, and he fought for freedom. He fought for our 
Bill of Rights. He fought for our Constitution. But you can see 
how it might be confusing when you send a soldier back in there 
that you say, well, Iran supports Hezbollah and the Allawites 
and the Shiites, but Iran also likes Malaki and the Shiites in 
there. So you can see how it is very confusing. We are on both 
sides of two different wars.
    To be at war and to kill people and to fight and to lay 
down your life--it is hard for me to be certain that I am 
excited to go. I mean, I hate that Mosul is falling and I hate 
that those are falling, but I also think for 10 years we have 
supplied the Iraqis. They cannot stand up and do anything to 
defend their country and it is all up to us? It is hard for me.
    And I think it is easy from a geopolitical point of view. 
All the things you say are rational and logical, but I see this 
also emotionally from a GI who has to go over there and 
potentially lose his life, an American. And I am concerned that 
it is confusing. Which side are we on? We are for the Sunnis in 
one war, and we are against the same set of Sunnis in another 
war in a neighboring place. It is all destabilizing.
    But you could even go back 10 years and say, you know, 
what? It might have been a little more stable when we had that 
awful guy Hussein who hated the Iranians. So I am not saying I 
am for having Hussein there. I am just saying that 
geopolitically you had people somewhat at a standstill over 
there, and now you have a really confusing mess that makes it 
hard for me or for a GI to understand who he is shooting at and 
why and he is shooting at one person in one war and a different 
person in another war, neighboring war.
    Ambassador Ross. Can I make just one quick response to 
that?
    Look, what you are saying is, obviously, a reality. But I 
think one way to think about it is that there are radical Shia 
militias who are armed, trained, funded by the Iranians. There 
is ISIS. These are extremist radical Sunnis. Both are our 
enemies. Both hate us. Both threaten us. So the key is to 
identify who are our natural partners who are contending with 
both, and how do we support them? We have to be able to 
discriminate enough and then we have to be able to figure out 
how to do that.
    Senator Paul. But would you agree it is hard to sort of 
decide who are our friends and who are not? We have given 
antitank weapons to a group in Syria that 2 weeks ago said that 
they will attack Israel. And we have already given them 
weapons. We let three people go from Gitmo who are fighting on 
the same side of the war. It is confusing. And there are 
radical elements, but they have hated each other for thousands 
of years, and they are probably going to hate each other for 
another thousand years and fight each other.
    I am not really saying do not be involved. I am saying try 
to help in some way, but really think seriously before we say, 
oh, it is real easy. We have the might. We do. We could go in 
and we could do it. But are you willing to let 4,000 more 
soldiers die in Iraq, Americans, to bring back Mosul? I think 
it is terrible what is happening, but the Iraqis need to step 
up and defend their country. And I just do not know if I am 
ready to send 4,000 soldiers in.
    I am also disturbed that we still have it on the books that 
the President, while you say he is unlikely, which I agree--it 
is still on the books that he could--we could go to war 
tomorrow with no vote of Congress. This is very, very tragic. 
And at the very least, even if everybody else disagrees with me 
and they want to go war in Iraq again, we should vote on it. 
For goodness sakes, we should not have permanent war that you 
can just go to war anytime you want. That is the way it exists 
right now. I am very troubled by that.
    And this is not really clear-cut exactly who we are for or 
who we are against, who we are shooting, and we are shooting 
different people in different wars. It is quite confusing I 
think. And for someone who is going to lay down their life, it 
needs to be much more, I think, clear-cut who is our enemy.
    Dr. Kagan. May I respond to that, please?
    Senator, I do not know anyone who is excited about going 
back to Iraq. I do not know anyone who thinks it will be easy. 
And I do not know anyone who is advocating it with a light 
heart or in a way that does not imagine that this is going to 
be incredibly painful.
    Senator Paul. You are in favor of sending troops back into 
Iraq now?
    Dr. Kagan. Sir, I am in favor of being prepared to do that 
rather than allowing an al-Qaeda franchise to establish a full-
up state with an army with vehicles stretching from----
    Senator Paul. And I do not question your motives. I mean, I 
think you are sincere. You are all trying to think this 
through. We are all Americans. We are always trying to do the 
right things. So I do not question your motives. But let us be 
clear. You are for sending troops into Iraq----
    Dr. Kagan. Yes, sir. I am very clear about that.
    Senator Paul. But to do that, you have to be prepared to 
also say--are you prepared to lose 4,000 lives if it takes it 
to get Mosul back? And that is a real question. Are you 
prepared to have 4,000 soldiers more die to take back Iraq 
again and try for another 10 years? Then what happens in 10 
years? Do we have to stay 20, 30, 50? The war has been going on 
a thousand years.
    Ambassador Ross. Can I just say one thing?
    I am not sure the choice is either you have to send troops 
back in or you do nothing. And I do not think we want to put 
ourselves in a position where our choice is you have to send 
troops in or you do nothing. There are options short of that, 
and we have to think through those because if, in fact, ISIS is 
able to establish a strong foothold in northern Iraq, we will 
end up finding that they do not just attack others within the 
area. It will become a base to attack us.
    Senator Paul. And we will go in as allies of Iran. And I 
myself am concerned about Iran. I am for the sanctions. I voted 
for all the sanctions. But if we go to war again in Iraq, we 
will go to war as allies of Iran. So it is a little bit 
confusing to tell a soldier you are going over there. We must 
do everything possible, including war, to keep Iran from having 
nuclear weapons, and yet we will be allied with Iran in a war 
in Iraq. It is confusing. It is not clear-cut.
    Dr. Kagan. Senator, I am very confident that our soldiers 
will be able to understand who the enemy is largely because 
there will be the enemy that is shooting at them, and they have 
shown in the past that they can do that. The soldiers we are 
talking about and officers are my friends. These are the people 
that I have also served with overseas. I understand the costs 
of this war, as well as you do, sir. And I understand the risks 
of sending troops into this conflict, as well as you do.
    I would not send American boots on the ground into this 
conflict in the first instance. I agree with Ambassador Ross. 
There are things to do short of that.
    But I agree with the point that you are making 
fundamentally, Senator, which is a very important one, that we 
should not imagine that there is an easy course of action here 
that is a limited action that is either guaranteed success or 
that we can do it and then say, well, it did not work and we 
are done with it. I am saying that if we are going to involve 
ourselves in this, we should be prepared to----
    The Chairman. I have allowed this to go on for a while, and 
I know everybody is passionate about their views and I 
appreciate that. There is a vote that is shortly going to be 
coming up. So I am sure the debate will continue.
    I will say one point about Iraq. It is not the focus of 
this hearing but elements of it have seeped in. As someone who 
voted against the war in Iraq, I can tell you that the biggest 
beneficiary of President Bush's engagement in Iraq has been 
Iran. And we are facing the flow of consequences from that. And 
it is not neat and it is not nice.
    I do believe after so many lives and national treasure that 
to do nothing is probably unacceptable in our national 
interests and our national security. But what that is I think 
there can be targeted, limited, but significant assistance to 
the Iraqis but only--and this is where I agree with Ambassador 
Ross--but only if Malaki is willing to make public statements 
with reference to a nonsectarian agenda and an Iraqi unity 
regardless of sector ethnicity, and uses the opportunity to 
unify his country because we can train all you want.
    But when I was in Iraq and I asked are these soldiers 
really ready to fight for their country or is this a job--
Americans when they sign up, especially in a volunteer army, 
are fighting for their country. They are fighting for a set of 
principles and beliefs. If it is just a job, there is a whole 
different set of circumstances. And so unless there is a sense 
of national unity and purpose, this will never be a successful 
set of circumstances.
    I appreciate this panel's insights. It has been very 
helpful. There is a lot more work to be done on the Iran 
question and many dimensions to it. And I am sure we will be 
engaging with you in the days ahead.
    With the appreciation of the committee, this hearing is 
adjourned.
    [Whereupon, at 12 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
